<html>
<title> - AVIATION SECURITY RESEARCH AND DEVELOPMENT AT THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                     AVIATION SECURITY RESEARCH AND
                    DEVELOPMENT AT THE DEPARTMENT OF
                           HOMELAND SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 24, 2008

                               __________

                           Serial No. 110-97

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov



                     U.S. GOVERNMENT PRINTING OFFICE
41-800 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

               Subcommittee on Technology and Innovation

                    HON. DAVID WU, Oregon, Chairman
JIM MATHESON, Utah                   PHIL GINGREY, Georgia
HARRY E. MITCHELL, Arizona           VERNON J. EHLERS, Michigan
CHARLIE A. WILSON, Ohio              JUDY BIGGERT, Illinois
BEN CHANDLER, Kentucky               ADRIAN SMITH, Nebraska
MIKE ROSS, Arizona                   PAUL C. BROUN, Georgia
LAURA RICHARDSON, California           
BART GORDON, Tennessee               RALPH M. HALL, Texas
                 MIKE QUEAR Subcommittee Staff Director
      RACHEL JAGODA BRUNETTE Democratic Professional Staff Member
        MEGHAN HOUSEWRIGHT Democratic Professional Staff Member
         TIND SHEPPER RYEN Republican Professional Staff Member
           PIPER LARGENT Republican Professional Staff Member


                            C O N T E N T S

                             April 24, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative David Wu, Chairman, Subcommittee on 
  Technology and Innovation, Committee on Science and Technology, 
  U.S. House of Representatives..................................     6
    Written Statement............................................     7

Statement by Representative Phil Gingrey, Ranking Minority 
  Member, Subcommittee on Technology and Innovation, Committee on 
  Science and Technology, U.S. House of Representatives..........     7
    Written Statement............................................     9

Prepared Statement by Representative Laura Richardson, Member, 
  Subcommittee on Technology and Innovation, Committee on Science 
  and Technology, U.S. House of Representatives..................     9

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Subcommittee on Technology and Innovation, Committee on Science 
  and Technology, U.S. House of Representatives..................    10

Prepared Statement by Representative Adrian Smith, Member, 
  Subcommittee on Technology and Innovation, Committee on Science 
  and Technology, U.S. House of Representatives..................    10

                               Witnesses:

Dr. Susan Hallowell, Director, Transportation Security 
  Laboratory, Science and Technology Directorate, Department of 
  Homeland Security
    Oral Statement...............................................    11
    Written Statement............................................    13
    Biography....................................................    19

Mr. Adam Tsao, Chief of Staff, Office of Operational Process and 
  Technology, Transportation Security Administration, Department 
  of Homeland Security
    Oral Statement...............................................    20
    Written Statement............................................    21

Dr. Jimmie C. Oxley, Professor of Chemistry, University of Rhode 
  Island (URI); Co-Director, URI Forensic Science Partnership; 
  Co-Director, DHS University Center of Excellence in Explosive 
  Detection, Mitigation, and Response
    Oral Statement...............................................    23
    Written Statement............................................    24
    Biography....................................................    27

Dr. Colin G. Drury, Distinguished Professor and Chair, Department 
  of Industrial and Systems Engineering, State University of New 
  York at Buffalo
    Oral Statement...............................................    27
    Written Statement............................................    29
    Biography....................................................    32

Discussion.......................................................    34

              Appendix: Answers to Post-Hearing Questions

Dr. Susan Hallowell, Director, Transportation Security 
  Laboratory, Science and Technology Directorate, Department of 
  Homeland Security..............................................    44

Mr. Adam Tsao, Chief of Staff, Office of Operational Process and 
  Technology, Transportation Security Administration, Department 
  of Homeland Security...........................................    51

Dr. Jimmie C. Oxley, Professor of Chemistry, University of Rhode 
  Island (URI); Co-Director, URI Forensic Science Partnership; 
  Co-Director, DHS University Center of Excellence in Explosive 
  Detection, Mitigation, and Response............................    55

Dr. Colin G. Drury, Distinguished Professor and Chair, Department 
  of Industrial and Systems Engineering, State University of New 
  York at Buffalo................................................    56


    AVIATION SECURITY RESEARCH AND DEVELOPMENT AT THE DEPARTMENT OF 
                           HOMELAND SECURITY

                              ----------                              


                        THURSDAY, APRIL 24, 2008

                  House of Representatives,
         Subcommittee on Technology and Innovation,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 1:10 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. David Wu 
[Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                     Aviation Security Research and

                    Development at the Department of

                           Homeland Security

                        thursday, april 24, 2008
                          1:00 p.m.-3:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, April 24, 2008, the Subcommittee on Technology and 
Innovation will hold a hearing to review the aviation security-related 
research, development, testing, and evaluation (RDT&E) activities of 
the Department of Homeland Security (DHS). This hearing will also 
explore how the Transportation Security Laboratory and other components 
of DHS support the needs of the Transportation Security Administration, 
the aviation industry, and passengers generally through research, 
development, and education.

2. Witnesses

Dr. Susan Hallowell is the Director of the Transportation Security 
Laboratory (TSL), a component of the Department of Homeland Security's 
Science and Technology Directorate (DHS S&T).

Mr. Adam Tsao is the Chief of Staff of the Office of Operational 
Process and Technology of the Transportation Security Administration 
(TSA).

Dr. Jimmie Oxley is a Professor of Chemistry at the University of Rhode 
Island and Co-Director of the DHS Center of Excellence for Explosives 
Detection, Mitigation, and Response.

Dr. Colin Drury is a distinguished Professor and Chair of the 
Department of Industrial Engineering at the University at Buffalo.

3. Brief Overview

        <bullet>  The Transportation Security Administration (TSA) was 
        created in 2001 to act as a centralized federal authority to 
        manage transportation security efforts in the United States. 
        The Transportation Security Laboratory (TSL) provides support 
        for TSA's mission through research, technology development, 
        testing and evaluation, and technical support for deployed 
        technologies. TSL became part of the Department of Homeland 
        Security Science and Technology Directorate in FY 2006. 
        Previously, TSL was managed by the Federal Aviation 
        Administration.

        <bullet>  Research priorities at TSL are generally set through 
        the transportation security Integrated Product Team, which 
        convenes stakeholder components of DHS, including TSA, to 
        discuss capability gaps and determine which R&D projects are 
        most likely to meet users' needs. Additionally, TSL coordinates 
        with DHS S&T's explosives division and will work with the newly 
        formed Center of Excellence for Explosives Detection, 
        Mitigation, and Response. The lab also tests and certifies 
        equipment submitted by outside vendors for eventual inclusion 
        on TSA's qualified product list (QPL), which allows vendors to 
        sell those products to TSA.

        <bullet>  Technology development priorities are also influenced 
        by outside requirements stemming from intelligence or publicity 
        of particular threats, such as the liquid explosives incident 
        in August 2006.

        <bullet>  TSL has particular expertise in testing and 
        evaluation, and hosts specialized laboratories capable of 
        handling explosives for technology validation. However, TSL 
        currently does not have the capacity to test screening 
        technologies in a realistic setting, where a network of devices 
        are used to detect potential threats. Additionally, TSL does 
        not carry out field tests of technology, but does provide 
        technical support to TSA for technologies in use at airports.

4. Issues and Concerns

Will the ongoing research, development, testing and evaluation projects 
at the Transportation Security Laboratory (TSL) meet the Transportation 
Security Administration's present and future needs? Is there adequate 
investment in basic research at TSL to allow the lab enough flexibility 
to address rapidly emerging threats? TSA is responsible for setting 
technology development priorities at TSL through the Integrated Product 
Team process, but budget limitations and demand for immediate 
technological responses to high-profile threats (such as liquid 
explosives or shoe bombs) can distract the lab from longer-term needs. 
Additionally, because of variations in airport design and passenger 
capacity, TSA cannot have a standard checkpoint design that works at 
every airport. A good solution to these conflicting pressures is strong 
investment in basic research, which provides the scientific basis to 
allow the laboratory to be flexible in its response to emerging threats 
and varying needs.

Does TSL's testing and evaluation of aviation security technology 
provide adequate information to the end-users at TSA? How are the tests 
designed, and what are the criteria for success? Are technologies that 
are tested or certified by TSL ready for deployment? If not, what 
additional efforts are necessary to bring technologies to full 
readiness, and how does TSL contribute to those efforts? TSL's testing 
and evaluation (T&E) protocols are considered a model for the 
Department of Homeland Security, but some technologies are deployed by 
TSA in spite of technical or operational issues (TSL does not control 
deployment schedules). Many of these issues could be identified or 
resolved if TSL was able to test devices in a realistic checkpoint 
scenario that incorporates a networked system of devices and carries 
out tests based on screeners' and passengers' needs and capabilities. 
Moreover, as technology develops, TSL must continually update 
performance and technical standards to address new capabilities and new 
requirements.
    Additionally, at its current capacity, TSL will likely have an 
increasingly difficult time keeping up with TSA's needs. According to 
the Director of TSL, their work for TSA has tripled since April 2006 
while funding for the lab has decreased. If this imbalance continues, 
T&E capabilities at TSL will continue to suffer.

Does TSL adequately incorporate human factors engineering and human-
technology interface principles into technology design and testing? How 
do TSA and TSL test and evaluate whether human-technology interface 
principles have been properly applied in the design and manufacturing 
of aviation security technologies? To move passengers and luggage 
efficiently through checkpoints, screeners need technology to help them 
search for contraband or dangerous items. As the list of forbidden 
items grows in response to newly identified threats, screeners' jobs 
become more and more difficult and need improved technological 
responses. The best technologies take into account screeners' technical 
skills and needs and looks at the ``human-technology interface;'' how 
well technology meshes with those skills and needs. Moreover, since 
these technologies are used in a public setting, passenger acceptance 
is also crucial. Designers must consider whether passengers would 
object or be seriously inconvenienced by technologies before they are 
deployed to avoid public outcry that might ultimately harm the aviation 
industry by driving away customers. Some recent controversies, such as 
the deployment of the back-scatter machine--which appears to virtually 
strip-search passengers-could have been avoided through careful 
attention to human-technology interface issues.

5. Background

    Technology plays a major role in aviation security operations. 
Screeners employed by the Transportation Security Administration (TSA) 
employ a variety of sensors to scan passengers and luggage for 
dangerous items quickly and efficiently. Many of these technologies, as 
well as other security devices, are developed, tested, or certified at 
the Transportation Security Laboratory (TSL) in Atlantic City, NJ. This 
lab, part of the DHS S&T Directorate, conducts research, development, 
testing, and evaluation (RDT&E) for explosives detection and other 
transportation security related technologies with the goal of deploying 
these technologies to TSA.
    The Transportation Security Laboratory, a component of the Federal 
Aviation Administration (FAA) and TSA before its transfer to the DHS 
Science and Technology Directorate in FY 2006, hosts specialized 
facilities for research, development, testing, and evaluation of 
innovative technologies for detecting threats to the transportation 
sector. In addition to basic and applied research and technology 
development, TSL carries out certification, qualification, and 
assessments of technologies developed by private industry for use by 
TSA.
    The laboratory has built capacity in a number of technology areas 
critical to transportation security, including bulk and trace sensors, 
devices for understanding the physics of explosions, technology for 
enhancing explosion survivability, communications equipment, and access 
control technologies. There are also six laboratories at TSL dedicated 
to testing explosives and weapons detection equipment. Finally, in 
addition to its RDT&E capacity, TSL also maintains models of all 
deployed technologies at the Atlantic City facility for troubleshooting 
and technical support purposes.
    RDT&E priorities for TSL are generally set by TSA, though they are 
influenced by the work of other DHS S&T components, including the 
Homeland Security Science and Technology Advisory Committee (HSSTAC) 
and the DHS S&T Explosives Division. DHS S&T uses a formal process that 
convenes Integrated Product Teams (IPTs) comprised of officials from 
DHS components who advise the S&T Directorate on their technology 
needs, thus informing specific research priorities. The planned 
transportation security IPT will be lead by TSA and will include 
stakeholders such as U.S. Customs and Border Protection (CBP), 
Immigration and Customs Enforcement (ICE) and the U.S. Coast Guard 
(USCG) who will select transportation security related technology 
development projects for TSL to undertake. To date, TSA has indicated 
that they are especially interested in projects for enhancing 
checkpoint security. TSL also coordinates with the Explosives Division 
of DHS S&T, which is guided by a separate but related explosives IPT 
that is currently focusing on standoff detection of improvised 
explosive devices (IEDs).
    TSA is also responsible for guiding testing and evaluation (T&E) 
priorities at TSL. Tests are constrained by the various lab 
capabilities, but TSL is able to carry out testing and validation for a 
wide array of technologies, including devices for baggage and personnel 
inspection, cargo inspection, infrastructure protection, and conveyance 
protection. The technologies that are tested at TSL include those 
developed internally, as well as by outside industry. TSA can 
specifically request certification of outside products for a qualified 
product list (QPL) that TSA uses to determine whether a technology is 
suitable for procurement and deployment. The laboratory will also begin 
developing plans to create a testing facility to model a full airport 
checkpoint, which would examine the technical performance of various 
technologies when they are integrated into a realistic system. TSA is 
also planning to build a similar facility for field testing 
technologies that are integrated into a checkpoint, but the aim of that 
facility would be technology operations and robustness.
    Chairman Wu. I would like to welcome everyone to this 
afternoon's hearing on aviation security research and 
development at the Department of Homeland Security. Since 2001, 
aviation security has vastly improved. There are new policies 
in place to help protect passengers and aircraft, and aviation 
security professionals are better trained to detect dangerous 
items. Of course, technology plays a critical role. Significant 
advances in aviation security technologies have led to 
screening equipment that is faster and more reliable than the 
last generation, allowing Transportation Security 
Administration screeners to process passengers and baggage 
efficiently while still keeping prohibited items off planes.
    However, improvements still need to be made. Last year, a 
Government Accountability Office test of airport checkpoints 
found that explosive devices could be smuggled through 
undetected. There have also been recent news reports 
highlighting security failures, including a January 2008 CNN 
segment that featured a TSA employee slipping a bomb past 
screeners in a planned test. One of GAO's key recommendations 
for dealing with these shortcomings was to invest in improving 
security technologies.
    The Transportation Security Laboratory, or TSL, is at the 
forefront of developing the next generation of aviation 
security technology. This laboratory, which was transferred to 
the DHS Science and Technology Directorate in fiscal year 2006, 
serves as the Nation's key resource for transportation 
security-related research, development, testing, and 
evaluation. In addition to groundbreaking research on 
explosives, TSL develops and validates passenger and luggage 
screening technologies, certifies devices developed by private 
industry, and provides technical support to TSA for deployed 
technologies.
    Rigorous testing and evaluation are an important step 
towards ensuring that new technologies meet TSA's technical 
needs. Currently, TSA works closely with the laboratory to 
develop test protocols and define criteria for success. But the 
security failures discovered by GAO and others illustrate the 
need to constantly update tests to ensure that technologies can 
deal with emerging threats. Technologies deployed before they 
are truly ready cement the perception that aviation security is 
nothing but theater.
    Finally, we often forget that a technology is only as 
successful as the person operating it, and this is especially 
true in the aviation security sector, where screeners must 
determine whether objects identified by screening technologies 
are truly dangerous. Additionally, passengers also play a key 
role in any technology's performance and success. If passengers 
find screening technologies too cumbersome or too intrusive, 
the consequences can ripple across the entire aviation sector. 
TSL and TSA must work together to ensure that human factors are 
taken into consideration from the first stages of technologic 
development.
    Dr. Hallowell has said in the past that she envisions a 
checkpoint in the future where no one has to empty their 
pockets, take off their shoes, or try to fit their toothpaste 
and deodorant into a tiny plastic bag in order to get on an 
airplane, and I for one truly look forward to that day. The 
Committee applauds that goal, and I want to work with you all 
and the TSA to ensure that the next generation aviation 
security technologies are effective and efficient while meeting 
the needs of all screeners and passengers.
    I would now like to recognize my friend and colleague, the 
Ranking Member from Georgia, Dr. Gingrey, for his opening 
statement.
    [The prepared statement of Chairman Wu follows:]

                Prepared Statement of Chairman David Wu

    This hearing will come to order. Good afternoon. I'd like to 
welcome everyone to this afternoon's hearing on Aviation Security 
Research and Development at the Department of Homeland Security.
    Since 2001, aviation security has vastly improved. There are new 
policies in place to help protect passengers and aircraft, and aviation 
security professionals are better trained to detect dangerous items. Of 
course, technology plays a critical role. Significant advances in 
aviation security technologies have led to screening equipment that is 
faster and more reliable than the last generation, allowing 
Transportation Security Administration screeners to process passengers 
and baggage efficiently while still keeping prohibited items off 
planes.
    However, improvements still need to be made.
    Last year, a Government Accountability Office test of airport 
checkpoints found that explosive devices could be smuggled through 
undetected. There have also been recent news reports highlighting 
security failures, including a January 2008 CNN segment that featured a 
TSA employee slipping a bomb past screeners in a planned test. One of 
GAO's key recommendations for dealing with these shortcomings was to 
invest in improving security technologies.
    The Transportation Security Laboratory, or TSL, is at the forefront 
of developing the next generation of aviation security technology. This 
laboratory, which was transferred to the DHS Science and Technology 
Directorate in FY 2006, serves as the Nation's key resource for 
transportation security-related research, development, testing, and 
evaluation. In addition to ground-breaking research on explosives, TSL 
develops and validates passenger and luggage screening technologies, 
certifies devices developed by private industry, and provides critical 
technical support to TSA for deployed technologies.
    Rigorous testing and evaluation are a crucial step towards ensuring 
that new technologies meet TSA's technical needs. Currently, TSA works 
closely with the laboratory to develop test protocols and define 
criteria for success. But the security failures discovered by GAO and 
others illustrate the need to constantly update tests to ensure that 
technologies can deal with emerging threats. Technologies deployed 
before they are truly ready cement the perception that aviation 
security is nothing but theater.
    Finally, we often forget that a technology is only as successful as 
the person operating it. This is especially true in the aviation 
security sector, where screeners must determine whether objects 
identified by screening technologies are truly dangerous. Additionally, 
passengers also play a key role in any technology's performance and 
success. If passengers find screening technologies too cumbersome or 
too intrusive, the consequences can ripple across the entire aviation 
sector. TSL and TSA must work together to ensure that human factors are 
taken into consideration from the first stages of technology 
development.
    Dr. Hallowell has said in the past that she envisions a checkpoint 
of the future where no one has to empty their pockets, take off their 
shoes, or try to fit their toothpaste and deodorant into a tiny plastic 
bag in order to get on an airplane. The Committee applauds that goal, 
and I want to work with you and the TSA to ensure that next generation 
aviation security technologies are effective and efficient while 
meeting the needs of all screeners and passengers.
    I'd now like to recognize my colleague, the Ranking Member from 
Georgia, Dr. Gingrey, for an opening statement.

    Mr. Gingrey. Good afternoon, Chairman Wu, and I want to 
apologize in advance to our distinguished panel because I am 
going to have to step out after I make the opening statement, 
hopefully to come back because I don't want to miss all of this 
important, very, very important hearing from such a 
distinguished panel. Dr. Oxley, I see you are a Professor of 
Chemistry. I have a degree, a BS, in chemistry from Georgia 
Tech from a long time ago. I hope if you are still doing any 
teaching that you grade a little easier than those monsters 
that I had at Georgia Tech. In any regard, Mr. Chairman, thank 
you for holding this important hearing today on the Department 
of Homeland Security's aviation security program.
    Aviation security is an issue that affects every Member of 
Congress, as passengers across the country put their faith in 
the Transportation Security Administration to have the 
technology in place to keep them safe as they travel. We have 
an excellent opportunity today to discuss how to best put the 
immense creative talent of our country's scientists an 
engineers to use to prevent acts of terrorism in our airports 
and skies. Aviation continues to be a target, no question about 
it, as evidenced by the publicized liquid explosive plot from 
2006 and of course the attempted attack by the famous, infamous 
shoe bomber, Richard Reid, back in 2001.
    A successful attack like the tragic one that did occur on 
September 11, 2001, would yield an immediate and catastrophic 
loss of life, create economic losses throughout the aviation 
industry and possibly beyond. In fact, I think if that occurred 
today, it would be a lot more devastating economically than it 
was back in 2001, what with the price of jet fuel and the 
airlines struggling.
    But there is no easy, all-encompassing solution against a 
cunning and committed enemy. We must continually review and 
refine every defense and seek out new ideas and technologies 
that will better nullify the threats that will continue to be 
there. And we must also recall that this is but one challenge 
to implementing an effective, efficient, and evolving defense 
of our homeland.
    I am eager to hear what the witnesses have to say about 
this challenge and how we can improve our current aviation 
security efforts. Mr. Chairman, we must also ensure that our 
substantial investments of R&D and new aviation security 
technologies work as advertised. They are coordinated 
throughout the government, include appropriate university 
researchers and private-sector companies. And to that end, I am 
particularly interested in hearing how the TSA and 
Transportation Security Lab witnesses describe their 
relationship and what is the plan for the future. Formerly part 
of TSA, the Transportation Security Lab became part of the 
Science and Technology Directorate of the Department of 
Homeland Security back in 2006. The lab possesses many of the 
world's foremost experts on all kinds of aviation security 
technology and of course supports research, development, tests, 
and evaluation of activities based on the requirements and the 
priorities of TSA.
    Within the wide aviation security industry, some have had 
difficulty understanding the roles and the responsibilities of 
TSA and TSL and how other institutions, like universities, 
national labs, or private companies can best contribute. I hope 
that our witnesses today will be able to clarify and clearly 
and concisely lay out who is developing our aviation security 
strategy and how that strategy is being implemented. How can a 
university researcher determine what TSA's most pressing, basic 
research needs are? How can a private company translate broad 
equipment requirements to technical specs that can lead to a 
commercially available product? Is there a standard process for 
tests and evaluation of new technologies? The answers to these 
questions will lessen confusion outside of the Department of 
Homeland Security and it will allow TSA to create more 
successful partnerships.
    Again, Mr. Chairman, I look forward to hearing from our 
distinguished panel, and with that, I will yield back the 
balance of my time.
    [The prepared statement of Mr. Gingrey follows:]

           Prepared Statement of Representative Phil Gingrey

    Good afternoon, Chairman Wu. Thank you for holding this important 
hearing today on the Department of Homeland Security's aviation 
security programs. Aviation security is an issue that affects every 
Member of Congress as passengers across the country put their faith in 
the Transportation Security Administration to have the technology in 
place to keep them safe as they travel.
    We have an excellent opportunity today to discuss how best to put 
the immense creative talent of our country's scientists and engineers 
to use to prevent acts of terrorism in our airports and skies.
    Aviation continues to be a target, as evidenced by the publicized 
liquid explosives plot from 2006 and the attempted attack by ``shoe 
bomber'' Richard Reid in 2001. A successful attack like the tragic one 
that occurred on September 11, 2001 would yield an immediate and 
catastrophic loss of life, and create economic losses throughout the 
aviation industry and possibly beyond.
    But there is no easy, all-encompassing solution. Against a guileful 
and committed enemy, we must continually review and refine our defenses 
and seek out new ideas and technologies that will better nullify the 
threats against us. We must also recall that this is but one challenge 
to implementing an effective, efficient, and evolving defense of our 
homeland. I am eager to hear what the witnesses have to say about this 
challenge and how we can improve our current aviation security efforts.
    Mr. Chairman, we must also ensure that our substantial investments 
in R&D and new aviation security technologies work as advertised, are 
coordinated throughout the government, and include appropriate 
university researchers and private sector companies. To that end, I am 
particularly interested in hearing our TSA and Transportation Security 
Lab (TSL) witnesses describe their relationship and plans for the 
future.
    Formerly part of TSA, the Transportation Security Lab became part 
of the Science and Technology Directorate of DHS in 2006. The lab 
possesses many of the world's foremost experts on all kinds of aviation 
security technology and supports research, development, test, and 
evaluation activities based on the requirements and priorities of TSA.
    Within the wider aviation security industry, some have had 
difficulty understanding the roles and responsibilities of TSA and TSL 
and how other institutions like universities, national labs, or private 
companies can best contribute. I hope that our witnesses today will be 
able to clearly and concisely lay out who is developing our aviation 
security strategy and how that strategy is being implemented.
    How can a university researcher determine what TSA's most pressing 
basic research needs are? How can a private company translate broad 
equipment requirements to technical specifications that can lead to a 
commercially available product?
    Is there a standard process for test and evaluation of new 
technologies? Answers to these questions will lessen confusion outside 
of DHS and allow TSA to create more successful partnerships.
    Again, I look forward to hearing from our distinguished panel and 
with that Mr. Chairman, I yield back the balance of my time.

    Chairman Wu. Thank you, Dr. Gingrey, and we look forward to 
your return once you have taken care of other very important 
tasks.
    If there are other Members who wish to submit additional 
opening statements, the statements will be added at this point 
in the record.
    [The prepared statement of Ms. Richardson follows:]

         Prepared Statement of Representative Laura Richardson

    Thank you Chairman Wu for holding this very important hearing 
today, and our witnesses for your attendance.
    In a post 9/11 world, is there a topic that is more important than 
the one we are discussing today? That awful day back in 2001 stole our 
innocence and put our nation and Congress on high alert. No longer 
could we take for granted the safety of the two million passengers that 
pass through our nations airports. Our enemies raised the stakes, and 
it was critical that we responded thoroughly in order to minimize the 
chances that an event like 9/11 could never happen again.
    While there has not been another terrorist attack on our soil since 
9/11, at times it seems like we are two steps behind the terrorist in a 
reactionary mode. First there was the shoe bomb incident. As a result 
we all have to take our shoes off when we pass through security 
checkpoints. Then there was the threat of liquid explosives, which 
forced TSA to ban passengers from carrying liquids on board. While no 
one could have predicted these events, it is imperative that TSA and 
other federal agencies tasked with protecting all of us are more 
proactive in their attempts to protect us. This can be achieved if we 
were to heed the advice that our witness Jimmie C. Oxley offered in his 
written testimony, and that is to ``increase communication to 
technology suppliers with respect to emerging threats, scenarios and 
threat levels.'' We simply can not protect ourselves, if our 
researchers do not know the extent of the threat.
    On that note my staff recently had the opportunity to visit the 
National Institute of Standards and Technology (NIST) laboratories in 
Gaithersburg, MD, where the scientist there are conducting research 
into trace explosive detection. While the Transportation Security 
Laboratory (TSL) is the primary source for aviation security R&D, I 
hope that these two agencies can collaborate on more research projects, 
because every federal agency plays a vital role in aviation security on 
some level.
    Let me conclude by stating that the timing of this hearing could 
not be better as most of my colleagues, including myself will travel by 
air back to our districts for the weekend.
    I look forward to this discussion, and I hope that we as a 
committee can learn from this hearing what we can do to assist TSA, and 
DSH in their ongoing efforts to protect all who travel in the United 
States.
    Mr. Chairman I yield back my time.

    [The prepared statement of Mr. Mitchell follows:]

         Prepared Statement of Representative Harry E. Mitchell

    Thank you, Mr. Chairman.
    The Transportation Security Administration (TSA) is tasked with 
managing transportation security efforts to ensure that our airline 
passengers can fly safely.
    However, as the number and type of threats continues to increase, 
it is essential to ensure that TSA has the tools it needs to protect 
airline passengers.
    The Transportation Security Laboratory (TSL) supports the TSA 
through research, technology development, testing and evaluation, and 
testing support for security technologies.
    Clearly safety and security must be our top priorities. But we also 
need to ensure that our new technologies are practical, and can work in 
a realistic passenger screening setting.
    I look forward to hearing more from our witness on how we can keep 
our passengers safe.
    I yield back.

    [The prepared statement of Mr. Smith follows:]

           Prepared Statement of Representative Adrian Smith

    Thank you Chairman Wu. It's a pleasure to be here this afternoon 
for this subcommittee hearing on the Department of Homeland Security's 
Transportation Security Laboratory and aviation security. Subcommittee 
Ranking Member Gingrey has been detained at a meeting of the House 
Armed Services Committee and will be joining this hearing when 
possible. He has an insightful opening statement that he will submit 
for the record and which I urge everyone to read.
    There is an obvious and immediate need for improvements in aviation 
security within the U.S. and around the world. Airlines continue to be 
targeted for attack, and new types of threats are being exposed 
everyday. We need the help and support of scientists and engineers to 
defend against the wide variety of explosives and weapons that could be 
used in an attack.
    Members of Congress take a lot of flights back and forth between 
Washington and our homes. And while we may feel like aviation security 
experts ourselves after the hundredth flight, the real expertise is 
before us today. The panel has a wealth of experience and knowledge in 
this area, and I'm looking forward to learning what I can from you.
    Before closing, I would also like to echo a statement in Dr. 
Gingrey's prepared remarks. A large number of companies and individual 
researchers have looked at how they might improve aviation security 
after the tragic events of 9-11. However, within this wider aviation 
security industry, the roles and responsibilities of TSA, TSL, and 
other institutions like universities, national labs, or private 
companies are poorly understood. In your testimony today, I hope the 
witnesses can provide clear and concise guidance for how our aviation 
security strategy is set and how that strategy impacts technology 
development.
    Again, thank you for taking the time to speak with us today. Mr. 
Chairman, I will yield back the balance of my time.

    Chairman Wu. And now I am delighted to introduce our expert 
panel. Dr. Susan Hallowell is the Director of the 
Transportation Security Laboratory. Mr. Adam Tsao is the Chief 
of Staff of the Office of Operational Process and Technology 
which handles technology procurement issues for the 
Transportation Security Administration. I actually had to read 
that phrase three times this morning so I wouldn't trip over it 
right now. Dr. Jimmie Oxley is a Professor of Chemistry at the 
University of Rhode Island and is the Co-Director of the newly 
awarded DHS University Center of Excellence for Explosives 
Detection--see, I should have read that more carefully--
Explosives Detection, Mitigation, and Response. And finally, 
Dr. Colin Drury is a Distinguished Professor and Chair of the 
Department of Industrial Engineering at the State University of 
New York at Buffalo.
    As our witnesses should know, spoken testimony should be 
about five minutes long after which the Members of the 
Committee will have five minutes each to ask questions. Please 
feel free to summarize your written testimony, and we shall 
begin with Dr. Hallowell.

  STATEMENT OF DR. SUSAN HALLOWELL, DIRECTOR, TRANSPORTATION 
   SECURITY LABORATORY, SCIENCE AND TECHNOLOGY DIRECTORATE, 
                DEPARTMENT OF HOMELAND SECURITY

    Dr. Hallowell. Good afternoon, Chairman Wu and 
distinguished Members of the Committee. It is an honor for me 
to appear before you today and provide information about the 
Transportation Security Laboratory which is part of the 
Department of Homeland Security's Science and Technology 
Directorate.
    The Transportation Security Laboratory has historically 
been responsible for turning aviation security applied research 
into prototypes and products. Following the PanAm 103 tragedy 
in 1988, the Aviation Security Improvement Act was enacted by 
Congress. This law mandated the development of technology that 
could be certified to be reliable and detect explosive 
materials concealed in checked baggage. This resulted in the 
creation of the Aviation Security Laboratory, my lab, which at 
that time was an element of the Federal Aviation Administration 
in 1992.
    The ASL received direct funding by congressional line 
explosives detection, infrastructure protection, human factors, 
and aircraft hardening. Congress also required that the FAA 
develop a certification standard that would define the 
performance requirements for an explosive detection system 
which we call EDS in terms of probability of detection, false 
alarm rates, throughput rates, and detection of specific types 
and configurations of different kinds of explosives. The EDS 
Certification Standard was established and published in the 
Federal Register in 1992, and the lab certified its first EDS 
unit in 1994.
    The ASL was integrated into the newly formed TSA after the 
terrorist attacks on 9/11 and was renamed the Transportation 
Security Laboratory. The TSL provided the intensive accelerated 
effort necessary to develop, mature, and certify technologies 
necessary to support the historic deployment of aviation 
security technology screening devices in American airports. 
During this timeframe, new standards of performance were 
created for TSA and several technologies were qualified or 
certified. In 2003, the TSA and the TSL joined the new 
Department of Homeland Security; and in 2006, the TSL became 
part of the Department's Science and Technology Directorate.
    In the ever-changing landscape of potential threats, the 
Transportation Security Lab continues to be recognized as the 
foremost resource for applied research development, 
integration, and validation of leading-edge science and 
technology for detection and mitigation of explosives and 
conventional threats.
    The lab continues to work to provide both technical and 
procedural solutions that will work in the field. The TSL 
performs R&D at the request of the S&T directorate. The 
laboratory currently supports S&T explosives division, checked 
baggage, air cargo, and checkpoint program efforts. TSL also 
performs work for the TSA on an as-required basis. This 
includes certification, qualification tests, and technology 
assessment testing. TSL is also the go-to laboratory for a 
number of government agencies that are looking for explosive 
detection devices.
    Tests and evaluation activities at the TSL encompass two 
independent functions. The independent tests and evaluation 
function is responsible for evaluating mature technologies that 
may meet TSA security requirements that are suitable for 
piloting or deployment, and principally this supports the TSA 
needs. The research, development, test, and evaluation function 
has responsibilities ranging from evaluation of applied 
research, to prototype development and maturation and supports 
S&T or other R&D customers that we have at the laboratory.
    These two groups set their priorities using different 
methodologies. The IT&E group has a strong relationship with 
TSA's Office of Security Technology in that they frequently 
discuss testing requirements, priorities, and the results of 
those testing evaluations. Results support TSA decisions for 
field trials, deployment, or their investment strategies. The 
IT&E office judges detection worthiness and product readiness. 
The customer of TSA sets the requirements, and the laboratory 
designs each test to determine if candidate systems meet those 
requirements. The types and frequencies of independent testing 
at the TSL has tripled in the last two years as acquisition by 
TSA has become more diverse as more explosives and more weapons 
detection equipment has become commercially available for 
testing.
    In general, there are three kinds of tests administered by 
the independent testing evaluation team. The Certification Test 
is focused on providing laboratory certification of matured 
explosive detection equipment. Certification is recognized as 
the world standard for explosives detection.
    The Qualification Tests are designed to verify that a 
security system meets the requirements specified in the TSA-
initiated Technical Requirements Document. The results from 
this test, along with TSA-conducted pilots, field trials, 
generally result in a determination of fitness-for-use by TSA.
    Laboratory Assessment Testing is conducted to determine the 
general capability of a system. The results of these 
evaluations of candidate security systems drive future 
development efforts or operational evaluations.
    DT&E testing at the TSL assesses the strengths, weaknesses, 
and the vulnerabilities of technologies as they mature. The 
primary focus is to ensure that technology is robust and ready 
to go to the final stages of testing done by the independent 
test and evaluation group.
    While the TSL performs testing certification of 
technologies, its responsibility of TSA as our customer----
    Chairman Wu. Dr. Hallowell, if you wouldn't mind summing up 
in just a little bit.
    Dr. Hallowell. Certainly, sir. In conclusion, I would just 
like to say that the focus of R&D and test evaluation is done 
by the TSL, and our focus is to develop immature and 
transitioning technology to detect explosives. We have a close 
relationship with our customer which is TSA, and it allows us 
to understand the customer needs. The TSL does stand proudly 
behind the fact that every piece of security equipment that is 
in American airports has gone through the hands of people in 
our laboratory.
    Chairman Wu and Ranking Member who left and distinguished 
Members of the Committee, I want to thank you for giving me the 
opportunity to provide this testimony.
    [The prepared statement of Dr. Hallowell follows:]

                 Prepared Statement of Susan Hallowell

INTRODUCTION

    Good Afternoon Chairman Wu, Ranking Member Gingrey, and 
distinguished Members of the Committee. It is an honor for me to appear 
before you today to provide you with information about the 
Transportation Security Laboratory, part of the Department of Homeland 
Security's (DHS) Science and Technology Directorate (S&T).
    The Transportation Security Laboratory (TSL) has historically been 
responsible for turning aviation security applied research into 
prototypes and products. The Laboratory emerged from many years of work 
by Federal Aviation Authority (FAA) officials to increase aviation 
security, originally in the light of high-jacking incidents in the 
1970s. The Air Transportation Security Act of 1974 (Public Law 93-366) 
granted the FAA authority to pursue methods aimed at preventing high-
jacking, and this authority was strengthened by the 1985 International 
Security and Development Cooperation Act (Public Law 99-83), which led 
to growth and expansion of the FAA's research and development program.
    During the 1980s, threats to aviation safety began to include bombs 
as well as high-jacking threats, and the sorts of technology needed for 
detection and screening purposes started to change. Following the PanAm 
103 tragedy in 1988, development of state-of-the-art technology that 
the FAA Administrator could certify as reliably able to detect 
explosive material in checked baggage was recommended. These 
recommendations, codified in the Aviation Security Improvement Act 
(Public Law 101-604) in 1992, resulted in the creation of the Aviation 
Security Laboratory (ASL) at the FAA William J. Hughes Technical 
Center, in Atlantic City, New Jersey.
    The new ASL launched a multi-tiered program to develop automatic 
methods to detect threat amounts of explosive in checked luggage as 
well as develop hardened aircraft containers capable of preventing 
another tragedy. The ASL received direct funding by congressional line 
explosives detection, infrastructure protection, human factors, and 
aircraft hardening. The Commission's mandate also required that the FAA 
develop a Certification Standard that would define the performance 
requirements for an Explosive Detection System (EDS) in terms of 
probability of detection, false alarm rate, throughput rate, and 
detection of specific types and configuration of explosives. The EDS 
Certification Standard was established and published in the Federal 
Register in 1992, and the ASL certified the first unit, an InVision CTX 
5000 System, in 1994.
    Following the events of 9/11, the Aviation Security Laboratory was 
renamed the Transportation Security Laboratory (TSL) and joined the 
Transportation Security Administration (TSA); in 2003, the TSA and the 
TSL joined the new Department of Homeland Security, and in 2006 the TSL 
became part of the Department's Science and Technology Directorate. As 
a federal laboratory and extension of the Directorate, the TSL's domain 
and customer base continue to grow. In the dynamic environment in which 
we live, where both foreign and domestic entities pose real threats, 
the Transportation Security Laboratory is recognized as the foremost 
resource for applied research, development, integration, and validation 
of leading edge science and technology for the detection and mitigation 
of explosives and conventional weapons threats. The Laboratory is more 
than a research institution, however; it is committed to providing 
technical and procedural solutions that work in the field. This 
testimony provides an overview of TSL's research, development, test and 
evaluation activities, its customer interactions, and its roles in 
technology transfer.

TSL's Role in Setting Aviation Security Research, Development, Testing 
                    and Evaluation Priorities

    Although the TSL provides research and development (R&D) input, the 
TSL does not set priorities for this work. The TSL performs R&D at the 
request of the S&T Directorate, and priorities for this work are set 
primarily by the customer components. Under Secretary Cohen instituted 
the Capstone Integrated Product Team (IPT) process to set priorities 
for the Transition portion of the S&T Directorate's budget. Transition 
programs are focused on providing technology solutions to meet customer 
need in the zero to three years timeframe. Through this process our 
customers identify and prioritize their capability gaps to mission 
performance, which allows the Directorate to respond with applicable 
technology solutions to fill these gaps. Aviation security efforts fall 
under the Transportation Security Capstone IPT managed by the S&T 
Directorate's Explosive Division. TSA is the customer lead for this 
IPT. TSL currently supports S&T Explosives Division's checked baggage, 
air cargo, and checkpoint program efforts. The Research portion of the 
Directorate's budget is not completely tied to Transition programs but 
aligned to provide breakthrough science to support longer-term (outside 
of three years) needs of the customer.
    The Capstone process has lead to a better understanding of customer 
needs and how they set priorities, but it also has challenges given the 
large number of identified capability gaps and the expanded role of the 
Explosives Division beyond aviation and transportation explosives 
detection. As a result, the current funding for aviation security R&D 
for explosives detection is about what it was in 1996 (in absolute 
dollars).
    With the use of S&T `Core Funding' resources, TSL also performs 
work for customers on an as-requested basis. This involves pop-up 
requests from TSA, both from the TSA Office of Security Technology 
(OST), and from TSA field offices and airports. TSL has also done work 
for the U.S. Secret Service, the U.S. Coast Guard, DHS Customs and 
Border Protection, the Department of State, and the Department of 
Defense. These organizations utilize the TSL as a `go-to' laboratory 
for explosives detection RDT&E. The lab conducts RDT&E evaluations of 
commercial off-the-shelf (COTS) and next-generation prototype detection 
equipment, provides laboratory and field testing standards for deployed 
explosives detection systems, and acts as subject matter experts to 
consult on a wide variety of issues involving weapons and explosives 
detection.
    Test and evaluations activities at TSL encompass two independent 
functions: The Independent Test and Evaluation (IT&E) function is 
responsible for evaluating mature technology that may meet TSA's 
security requirements, suitable for piloting or deployment, and the 
Research and Development function has responsibilities ranging from 
applied research, to prototype development, to technology maturation 
that produces prototypes suitable for evaluation by the Independent 
Test and Evaluation Team. These two groups set their priorities using 
different methodologies.
    The IT&E group has a strong relationship with the TSA's OST, in 
that they frequently discuss testing requirements, priorities and 
results of evaluations. TSL conducts three main kinds of independent 
verification and validation tests: certification tests, qualification 
tests, and laboratory assessments. These will be discussed in greater 
detail in the next section of my testimony, ``TSL's Testing and 
Evaluation Procedures.''
    The types and frequency of independent testing at the TSL has 
tripled in the last two years, as acquisitions by TSA have become more 
diverse and more explosives and weapons detection equipment has become 
commercially available. The Department of Homeland Security 
Appropriations Bill for FY 2008 directs DHS S&T ``to report on the 
costs and benefits of charging companies for certification of their 
products (at Transportation Security Laboratory (TSL) ) in light of the 
potential to provide enhanced certification services and the capital 
improvement needed to safely house the ITE program.'' S&T has performed 
the review as directed and believes that TSL should be allowed to 
charge companies for certification of their products. Since 1992, the 
TSL has carried out their Congressional responsibilities while serving 
as the focal point for technical exchange and excellence in the field 
of security technology with industry, academia, other federal and State 
agencies and foreign governments. Allowing TSL to charge companies for 
certification of their products is appropriate for this enduring and 
mature laboratory. The scope of investment required to meet the 
expanding workload of the Lab addresses infrastructure and personnel 
investment required.

TSL's Testing and Evaluation Procedures

Review of test and evaluation activities. There are different kinds of 
Test and Evaluation (T&E) activities at the TSL. Independent Test and 
Evaluation Activities include certification, qualification, and 
assessment testing, and generally speaking, are performed to determine 
if detection systems meet customer defined requirements. Developmental 
Test and Evaluation Activities (DT&E) activities are designed to verify 
that a prototype or near COTS system has met performance metrics 
established within the R&D program, such that it can proceed to the 
next R&D stage. Additionally, R&D may look at the science and 
technology issues behind the technology, along with the development of 
critical simulants or standards to perform laboratory or field testing 
of explosives.
    Independent Test & Evaluation: TSL's Independent Test and 
Evaluation (IT&E) group conducts independent verification and 
validation of detection systems for transportation commerce inspection 
(people, goods, and baggage). Results support decisions of DHS 
operating elements (such as TSA) for field trials and production or 
deployment, as well as key program milestones, bench-marking, and 
investment strategy. The IT&E office judges ``detection-worthiness'' 
and product readiness. The customer sets the requirements, and TSL 
designs each test to determine if candidate systems meet those 
requirements.
    The Certification Test Program is reserved for detection testing of 
bulk and trace explosives detection systems and equipment under 
statutory authority 49 U.S.C. 44913 for checked baggage. The focus is 
on providing laboratory certification of matured explosives detection 
equipment, certifying that salient performance characteristics, such as 
the probability of detection of all categories of explosives with 
appropriate false alarm rates and throughput rates, are met. The 
details of types and masses of explosives and false alarm rates are 
classified. EDS must be certified before they can be deployed. P.L. 
101-604 defined the requirement for certification of Explosives 
Detection Systems (EDS), and P.L. 107-71 defined the requirement for 
certification for Trace Explosives Detection Systems. Certification is 
recognized as a world standard for explosives detection. The TSL is ISO 
9001:2000 registered for certification of explosive detection systems.
    The certification process is clearly defined in the EDS 
Certification Management Plan (1993) which is available to those 
entities seeking systems certification. The certification test 
protocols were developed by a panel of experts (the National Academy of 
Sciences). Certification tests are performed with dedicated personnel, 
with the Test Director and an independent third party observer present. 
In the last two years, TSL has certified eleven bulk EDS and six trace 
EDS.
    Qualification Tests are designed to verify that a security system 
meets customer-defined requirements as specified in a TSA-initiated 
Technical Requirements Document. This test, along with piloting (field 
trials) generally results in a determination of fitness-for-use. This 
process is modeled after the certification process, and is defined 
within the Qualification Management Plan. Unlike the Certification 
Test, the requirements of the Qualification Management Plan typically 
expand beyond detection functions to include operational requirements. 
The Qualification Test Program is conducted under statutory authority 
different from certification testing. Covered by 10 U.S.C. 2319, 41 
U.S.C. 253(e) and FAR Subpart 9.2 Qualification Requirements, the 
result of Qualification Testing is a recommendation of whether 
candidate systems should be placed on a Qualified Products List (QPL). 
TSL has conducted 56 qualification tests in the last two years.
    Laboratory Assessment Testing is conducted to determine the general 
capability of a system. These evaluations of candidate security systems 
are carried out in accordance with interim performance metrics, and the 
results drive future development efforts or operational deployment 
evaluations. While the IT&E group practices best scientific principles 
in test design, execution, and evaluation of data, assessment criteria 
are determined by the customer (TSA) and the customer's needs. TSL has 
conducted 124 such assessments in the last two years on bulk EDS and 26 
on trace EDS in the last two years.
    Developmental Test and Evaluation (DT&E) is performed by the R&D 
team at the TSL, and involves testing in a controlled environment to 
ensure that all system or product components meet technical 
specifications. These tests are designed to ensure that developmental 
products have met major milestones identified within the R&D project.
    DT&E testing at the TSL assesses the strengths, weaknesses, and 
vulnerabilities of technologies as they mature and gain capability. The 
primary focus is to ensure that the technology is robust and ready for 
Certification Testing. The criteria for success are based on the 
operational needs of the customer and it is mainly based on technical 
performance and the component agency's Concept of Operations (CONOPS). 
Based on this key input, the customers' requirements are translated 
into technical requirements with testable metrics of performance. These 
metrics of success, and how they will be assessed, are detailed in the 
test plan.
    The ultimate goal is to ensure that equipment that will be deployed 
in the field is usable, effective, reliable, and maintainable over its 
operational lifetime. Thus, the time spent in DT&E assures that 
promising research and technology development transitions smoothly to 
the field and the end-users.
    TSL's RDT&E personnel also perform testing of basic scientific 
principles, development of laboratory and field simulants and 
standards, testing of breadboard systems or components, testing of 
prototype systems, and testing of near-COTS or COTS systems to 
determine if systems meet the minimum requirements of the customer, and 
are ready to transfer over to TSL's IT&E testing.

    Basic scientific principles are tested or measured utilizing 
expertise and advanced instrumentation at TSL to learn chemical or 
physical properties of materials (threats) or interactions with 
materials. This includes performing X-ray Diffraction and high energy 
X-ray/CT measurements on existing and home made explosives (HME) to 
determine the fundamental properties necessary for detection in COTS 
EDS systems. Similarly, ion chemistry measurements are collected to 
verify detection or interferences that may exist with ion mobility 
spectrometry (IMS) based explosives trace detection (ETD) systems.

    Testing and development of Simulants and Standards are critical to 
the T&E of explosives detection systems both in the laboratory and 
field. TSL has developed many sets of bulk explosives simulants (for X-
ray and CT systems) that allow testing of EDS systems without the need 
for the presence of dangerous bulk explosives, permitting systems to be 
tested in laboratory settings and for testing in the field for 
government customers. TSL has also developed a number of trace 
explosives standards for TSA, such as standards that are used for 
quality control (QC) checks on lab and fielded ETDs, trace particle 
standards to contaminate surfaces (baggage, laptops, vehicles, etc.) to 
verify proficiency of both the screener and ETD as a system, and a 
number of verification standards that other government performers or 
industry utilize to measure the efficiency of their ETD system.

    Breadboard EDS systems, which are developed either at TSL, 
industry, academia, or a government laboratory, are tested or evaluated 
by TSL as part of a product developmental cycle. This testing allows 
TSL to utilize explosives threats to measure the technology's 
feasibility to meet the customers' defined requirements, or in some 
cases, general requirements to develop technology for S&T without 
specific agency requirements, but with minimum technology 
specifications. Often, Human Factors evaluations or assistance are 
brought into the process to provide early guidance with the end-users 
requirements for usability, interface, and suitability.

    Prototype testing encompasses early developmental systems, which 
are typically provided by industry, academia, or government 
laboratories. Prototypes undergo testing to learn about detection 
capabilities and gaps, in order to improve and transfer the systems to 
the final production stage.

    R&D Assessment of production stage prototypes is where TSL 
determines if a system is ready to be transferred over to IT&E for 
critical customer evaluation. This testing looks at the minimum 
detection requirements of the evaluated system, the human factors 
considerations for field use, issues with false alarms, interferences, 
and systems engineering requirements. Often this is where industry will 
get a chance to perform final product modifications to meet the 
intended customer's needs.

    Certification Readiness Testing is a DT&E test conducted to provide 
quantitative evidence that a system meets (or fails to meet) the 
performance requirements prior to certification testing. This test is 
conducted in stages, in order to grow the candidate equipment 
performance so that it will be robust enough to have a good probability 
of passing the certification test. While certification may take only a 
few weeks to administer, Certification Readiness testing may take 
several months to a year of hard lab work with the industry partner to 
mature the candidate explosives detection system. Typically, the TSL 
presents increasingly harder Improvised Explosives Device (IED) 
concealments to candidate explosive screening equipment, and the vendor 
must, in turn, refine hardware and software to achieve detection of 
explosives with high levels of detection and low false alarm rates.
    The results of all of the above RDT&E activities normally end up in 
technical documents which, along with oral debriefings, are provided to 
the customer. This provides them with clear and concise test plans, T&E 
data, summaries, comments and conclusions. With CRDAs, similar non-
sensitive reports and debriefs are provided to the industrial partner 
to ensure they have gained the insight necessary to bring their product 
to the next step in the developmental process.
    Coordination with other DHS components. TSL works closely with TSA 
in the translation of customer requirements into TSA technical 
requirements that have performance metrics of success, so that 
requirements are testable. The IT&E group provides the customer with 
high quality test data that guides decisions concerning operational 
robustness and detection capability of available systems. The IT&E 
group also regularly convenes working groups, contributes to IPT 
meetings, and produces rapid assessments to support TSA's efforts. The 
TSL has also shared its expertise with other DHS components, including 
the U.S. Coast Guard and U.S. Secret Service.
    The TSL looks forward to contributing our expertise to the 
University Centers of Excellence (CoEs) in the areas of transportation 
and explosives. TSL personnel are working with the S&T Explosives 
Division to identify and evaluate potential research projects of 
interest, and TSL will be part of the proposal review chain. TSL has 
welcomed assorted undergraduate and graduate students as part of the 
DHS Scholars and Fellows program over the years. It should be noted 
that, prior to the establishment of the DHS CoEs, TSL has had a long 
and fruitful relationship with academia, via the Grants and Cooperative 
Agreement programs (FAA Grants Program). With these funding mechanisms, 
TSL has been able to work with academia to develop and perform RDT&E on 
novel next-generation explosives detection systems.

TSL and Technology Transfer

    While the TSL performs testing and certification of technologies, 
it is the responsibility of TSA to define and judge readiness for 
deployment. Technologies passing certification are demonstrated to have 
efficacy, but do not necessarily demonstrate operational robustness. 
Deployment decisions are, in part, based on unique laboratory tests 
conducted at TSL that cannot be conducted in the field, along with 
operational utility evaluations conducted by TSA. If TSA encounters 
operational issues with a piloted or deployed system, TSL stands ready 
to provide subject matter expertise to understand the issue and assist 
in corrective action. Several examples of TSL's assistance in these 
situations are described with other technologies we have transferred 
below. Occasionally, TSL has taken the initiative to develop product 
support systems (e.g., the Image Quality phantom and trace quality 
control aids) to improve operational performance.
    In terms of technology transfer, in addition to the clear 
technology transfer milestones that equipment certification and 
qualification play, the TSL offers continuous, daily support to enable 
this process. Some efforts are obvious, such as subject matter expert 
support for TSA programs, and some are more nuanced, such as 
refinements to federal security officer's training for explosives 
recognition, or training concerning use of an explosives detection 
system.
    In addition to testing and certification, TSL continues to work 
with TSA as they plan for deployment. The Lab helps TSA develop 
appropriate training modules for newly deployed technologies. The TSL 
also continues to work with the TSA to aid in the monitoring and 
oversight of the configuration of each piloted or deployed system. As 
systems are upgraded to become more operationally robust, the TSL 
assesses the extent and nature of system changes, and occasionally 
calls for system recertification if changes may affect the performance 
criteria of the system. Finally, the deployment of explosives detection 
systems to the airports has created a secondary industry at the TSL: We 
have created high fidelity explosive simulants, test articles, quality 
control aides and other diagnostic tools that TSA uses to validate that 
the equipment or screeners are performing at the appropriate high 
standards.

TSL/TSA Transition Activities

    TSL has worked with TSA to transition many programs that could 
improve transportation security. Examples of ongoing work include:

        <bullet>  TSL has been actively pursuing R&D relative to 
        improving detection by bomb sniffing dogs, and provide training 
        tools for canine handlers, training aids for canines and canine 
        performance assessments for canines to TSA's National 
        Explosives Detection Canine Training Program.

        <bullet>  TSL has a strong tradition of Human Factors 
        expertise, and TSL's Human Factors group is currently involved 
        with a number of projects in support of TSA. These efforts are 
        critical to ensure that sophisticated equipment can be easily, 
        safely, and effectively used by thousands of screeners in the 
        field. Past activities included the creation of a selection 
        test for X-ray screeners for TSA's Office of Human Capital; 
        this was transitioned to TSA in 2001 and it has been used to 
        hire all TSA screeners since then. Currently, the TSL Human 
        Factors team are:

                  Providing a formal analysis of the so-called ``re-
                screening problem'' for a joint U.S.-Canadian Working 
                Group, and looking at possible alternatives to re-
                screening of checked bags of Canadian origin at U.S. 
                airports.

                  Working on the development of On-Screen Alarm 
                Resolution (OSARP) procedures for Cargo, which presents 
                new and different challenges to screeners using EDS.

                  Participating in a TSA pilot on the development of 
                Cargo screening procedures for privately operated 
                independent air carriers that acquire X-ray, Advanced 
                Technology (AT) and Explosives Trace Detection (ETD) 
                equipment.

                  Participating in TSA's Passenger Screening Program 
                workgroup to develop measures of screening 
                effectiveness. TSL also supports research on screener 
                performance, screener attention focusing techniques, 
                screener fatigue, and optimizing screener interfaces, 
                which efforts are expected to contribute to TSA 
                processes in the future.

                  Providing support to the TSL's Independent Test & 
                Evaluation (IT&E) group assessments of Whole Body 
                Imagers (WBI) for TSA. In the last year, Human Factors 
                staff supported TSA with 14 separate WBI assessments 
                examining the effects of multiple technologies, 
                passenger poses, privacy settings, and threat sizes on 
                threat detection capabilities.

                  Through a long-term research grant with the 
                University of Central Florida, TSL's Human Factors 
                experts have created a new and highly effective method 
                for training TSA screeners to detect threats in carry-
                on bags. This new method has been shown to produce 
                significant increases in threat detection in lab 
                studies, and an initial pilot showed improved IED 
                detection for screeners with this new training method. 
                A comprehensive pilot study is being planned with TSA's 
                Office of Technology Training to test 300 screeners 
                across at least 20 different U.S. airports.

        <bullet>  TSL also has a tradition of supporting mitigation 
        efforts and has assisted TSA's Office of Security Technologies 
        with mitigation-related technology. In the late 1990's, TSL 
        successfully blast-tested two hardened aircraft luggage 
        container prototypes (HULD's), which were subsequently 
        certified to existing FAA airworthiness requirements. In 2006, 
        the TSA's Office of Security Technology implemented the HULD 
        Pilot Program in response to 9/11 Commission recommendations, 
        the objective of which was to determine operational impact 
        (security benefits, durability, maintenance, training impact, 
        and cost) of any subsequent HULD implementation. During the 
        course of the HULD Pilot, TSA placed a total of 25 HULD's into 
        operational service trials; to date, 20 HULD's have been 
        removed from service at predetermined intervals (between 100-
        350 flights), and TSL has blast-tested these in order to 
        determine the effects of operational service on continued HULD 
        blast resistance. Over the next six months, TSL will complete 
        explosive testing on the HULD's remaining in operational 
        service.

Other Examples of Technology Transfer

    TSL also provides technology transfer through its Communications 
and Radio Frequency Identification (RFID) group. These activities 
include:

          Cockpit-Crew Emergency Communications System Flight Tests. 
        TSL provides expertise and flight tests to support TSA's 
        Federal Air Marshals (FAMS) development of the FAMS Air-to-
        Ground Communications Architecture.

          Cargo RFID Seals Project. TSL is providing recommendations 
        and test bed support for TSA's efforts to have a Cargo 
        Screening System using RFID seals in place for 100 percent of 
        all cargo shipments by August 2010.

          Canine Mass Transit Remote Sensor Project. This project is 
        providing a pilot of a Canine Stand-off Situational Assessment 
        for First Responders and was initiated by the TSA Deputy 
        Administrator.

          Regional Maritime Security Coalition/Cargo Information 
        Action Center. TSL contributed subject matter expertise and 
        assistance with transference of Command, Control, 
        Communications and Intelligence Network technology to Pacific 
        Northwest Airports and Columbia River Seaports, linking TSA 
        Federal Security Directors at Portland International and feeder 
        airports with the U.S. Coast Guard, Customs and Border Patrol, 
        FBI and State and Local Port Authorities and Emergency 
        Management Centers.

          Atlantic City International Airport Testbed. TSL is working 
        with the South Jersey Transportation Authority for in-situ 
        RDT&E site for airport-related security technologies and 
        systems.

    Another major role that TSL plays in technology transfer is working 
with industry via Cooperative Research and Development Awards (CRDAs). 
The CRDA mechanism allows industry to mature their technology in 
partnership with the U.S. Government. TSL provides industry with a 
unique opportunity to perform RDT&E (laboratory evaluation) of its 
products with real explosive threats that are not typically available 
to the private sector, while at the same time providing industry with 
subject matter expertise to assist in the final development and 
maturation of technology. This allows Industry a path to mature 
technology that will meet performance standards required for DHS 
applications. To date, these activities have been limited due to lack 
of government funding and infrastructure/laboratory constraints.

Conclusion

    In conclusion, the primary focus of the R&D and the test and 
evaluation at the TSL is to develop, mature, and transition technology 
to detect explosives. TSL combines a profound awareness of terrorist 
capabilities with penetrating insight about the operational 
environment. The Laboratory's close relationship with its customers 
allows us to fully understand customer needs and incorporate 
operational considerations into our R&D. By applying fundamental 
understandings of science, systems engineering, and test and evaluation 
protocols, the Laboratory is a unique national asset that is perfectly 
positioned to continue providing effective technology solutions for 
national security. The TSL stands proudly behind the fact that every 
piece of security technology presently deployed in the Nation's 
airports has at some point traveled through our doors. Whether it is 
during development, qualification, or certification, the hands and 
minds of the TSL team have played a role in all of today's 
technological solutions for the detection of explosives and 
conventional weapons in transportation security. Chairman Wu, Ranking 
Member Gingrey, and distinguished Members of the Committee, I want to 
thank you for giving me the opportunity to provide this testimony 
today.

                     Biography for Susan Hallowell

    Dr. Hallowell is the Director of the Transportation Security 
Laboratory (TSL), a Federal Laboratory of the Science and Technology 
Directorate (S&T) of the Department of Homeland Security (DHS). This 
laboratory is responsible for researching, developing, and evaluating 
solutions to detect, deter and mitigate improvised explosive devices 
used against transportation systems. Prior to this, she was manager of 
the Explosives and Weapons Detection R&D Branch of the Transportation 
Security Laboratory.
    Dr. Hallowell was recently recognized, in 2007, by Under Secretary 
Jay M. Cohen, S&T/DHS, with the Under Secretary's Award for Program 
Management. She supervised the transition of her lab within DHS from 
the Transportation Security Administration (TSA) to the Science and 
Technology Directorate. Dr. Hallowell moved the TSL in a new direction 
by reinventing it as a test and evaluation laboratory responsive to 
customers in all components of the DHS and to stakeholders in the 
public and private sectors. She has worked for the DHS, TSA, and FAA 
for over 15 years in the area of explosives detection research and 
development, and is an expert in the area of trace detection of 
explosives. She has written numerous publications and has received many 
awards in this area. Prior to working for the FAA, she worked as a 
research chemist for the U.S. Army, in the area of detection of and 
protection against chemical warfare agents, and technical measures 
supporting CW treaty verification.
    She was granted a Doctor of Philosophy in Analytical Chemistry from 
the University of Delaware in 1989 for work in the area of biosensor 
development. She holds a Bachelor of Arts from Western Maryland College 
with a major in chemistry. Dr. Hallowell is a member of the American 
Chemical Society, the American Association for the Advancement of 
Science, the New York Academy of Science, National Association of 
Female Executives, and is an elected member of Sigma Xi, the society of 
research scientists.

    Chairman Wu. Thank you very much, Dr. Hallowell. Mr. Tsao, 
you may proceed.

     STATEMENT OF MR. ADAM TSAO, CHIEF OF STAFF, OFFICE OF 
  OPERATIONAL PROCESS AND TECHNOLOGY, TRANSPORTATION SECURITY 
        ADMINISTRATION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Tsao. Thank you very much, Mr. Chairman. Good 
afternoon, Mr. Chairman and distinguished Members of the 
Committee. I am honored to be here today to appear on behalf of 
the Transportation Security Administration to discuss our 
research, development, and testing needs and discuss how S&T 
supports our mission.
    If it pleases the Committee, I would like to request that 
my written testimony be submitted for the record.
    As you know, TSA operates at over 450 airports. WE operate 
screening operations 24 hours a day, seven days a week across 
six time zones. On a daily basis our 43,000 transportation 
security officers will see two million passengers or 1.8 
million bags. My job as the Chief of Staff for Operational 
Process and Technology is to make sure the technology we feel 
provides the men and women of TSA the best opportunity in a 
very demanding environment against a determined foe.
    As Dr. Hallowell pointed out, in 2006, the Department of 
Homeland Security consolidated all research, development, and 
testing functions of the component agencies within the DHS S&T 
Directorate. As such, TSA relies heavily on S&T to satisfy our 
basic applied and development research needs. At the same time, 
we maintain responsibility for operational testing and 
evaluation, operational integration, and deployment of new 
security technologies. We are also the ones that set the 
security strategy and that everybody works off of. We have a 
very strong relationship with each of the divisions of the S&T 
Directorate, but we have a particularly close affiliation with 
the Transportation Security Lab. Our histories go well back to 
when these activities were in the FAA. We depend heavily on, as 
Dr. Hallowell said, independent test evaluation at TSL. I know 
all the professors there, I know all the doctors, I know all 
the projects that they are working on. We talk on a daily 
basis. We have a very open dialogue on the information we need 
as well as the ways they can help us.
    For each technology, we will identify the requirements that 
have to be met, and then the IT&E group will take those 
requirements, develop a test plan, test it, provide us the 
results. We will take these thorough and unbiased results and 
we will take them into consideration as we make our policy and 
investment decisions.
    I think there were also some questions about how we 
participate in the S&T capstone integrated product teams. Last 
year I believe was the very first year for this process, and we 
engaged at a very high level. Administrator Holly himself co-
chaired the first round of the explosives IPT with the Director 
of the U.S. Secret Service, Mark Sullivan. The process has been 
extremely valuable to us. Through the process, I think we have 
been able to better articulate our operational needs, not just 
our technical needs, but our operational needs to the rest of 
the department. Also, it has given us a fuller understanding of 
the needs of the other operating components, and it has given 
us opportunities to enter partnerships that we don't think we 
would have otherwise considered.
    So, Mr. Chairman, again, thank you for the opportunity to 
highlight our progress in making aviation more secure, and I 
look forward to responding to your questions.
    [The prepared statement of Mr. Tsao follows:]

                    Prepared Statement of Adam Tsao

    Good afternoon, Chairman Wu, Ranking Member Gingrey, and Members of 
the Subcommittee. I am pleased to appear before you today on behalf of 
the Transportation Security Administration (TSA) to discuss the 
research, development, and testing/evaluation needs of the TSA and how 
the Science and Technology (S&T) Directorate supports the TSA mission.
    TSA is the global leader in transportation security. We operate at 
airports across the country, 24 hours a day, seven days a week across 
six time zones. TSA employees screen more than two million passengers 
and 1.8 million of pieces of luggage daily. It is my job to provide the 
right technology to the field to support our vital security operations.
    As an operating agency, we rely heavily on S&T Directorate to 
satisfy our basic, applied and developmental research and development. 
We have a strong working relationship within each division of S&T 
Directorate, with a particularly close affiliation with the 
Transportation Security Lab (TSL) in Atlantic City, New Jersey.
    In 2006, the Department of Homeland Security (DHS) consolidated all 
research, development, and test and evaluation functions of its 
component agencies, with the exception of the U.S. Coast Guard, within 
the DHS S&T Directorate to achieve efficiencies through economies of 
scale. As required by the FY 2006 DHS Appropriations Act, the S&T 
Directorate assumed responsibility for the TSL from TSA. Since then, 
TSA has relied almost exclusively on the TSL for testing needs.

TECHNOLOGY AND THE PROCUREMENT PROCESS AT TSA

    TSA works with the Independent Test and Evaluation (IT&E) group at 
TSL to develop programs that test whether or not a new technology meets 
its stated requirements. After completing testing procedures, the IT&E 
group provides TSA with thorough, unbiased testing results. We use the 
results to make policy and investment decisions.

TSA'S ROLE IN TECHNOLOGY TESTING

    For each new technology, TSA develops and identifies the 
requirements that must be met for a procurement to proceed. The IT&E 
group within the TSL then takes these requirements and develops a 
testing program to determine whether or not a new technology meets the 
stated requirements. The role of TSA in designing these technology 
tests varies and is based on operational needs and the criticality of 
the technology and corresponding processes and procedures.
    Both the TSL and the DHS S&T Directorate divisions have a strong 
working relationship with TSA. Their collective efforts are divided 
broadly into six areas.
    The six areas are described in more detail, below:

        <bullet>  Basic research includes all scientific efforts and 
        experimentation directed toward increasing knowledge and 
        understanding in those fields of physical, engineering, 
        environmental, social, and life sciences related to long-term 
        national needs.

        <bullet>  Applied research includes all efforts directed toward 
        the solution of specific problems with a view toward developing 
        and evaluating the feasibility of proposed solutions.

        <bullet>  Advanced development includes all efforts directed 
        towards projects that have moved into the development of 
        hardware for field experiments and tests.

        <bullet>  Operational testing verifies that new systems are 
        operationally effective, supportable, and suitable before 
        deployment.

        <bullet>  Operational integration is the process by which TSA 
        enables successful transition of viable technologies and 
        systems to the field environment.

        <bullet>  Deployment is a series of actions following the 
        determination that the: base-lined product or system meets 
        TSA's performance, operational, and user requirements and is 
        accepted by the program manager and integrated product team; 
        designated locations are selected, configured, and optimized 
        for product/system integration into the screening operating 
        system and the installed product/system passes acceptance 
        testing at the designated location; logistics support is in 
        place and all users are trained for operational use of the 
        product/system. Only then is the product/system declared 
        commissioned or cleared for use.

    Additionally, DHS S&T Directorate is responsible for conducting 
basic and applied research, advanced development, and developmental 
test and evaluations. TSA maintains responsibility for operational 
testing and evaluation, operational integration, and deployment of new 
checkpoint screening technologies.

Integrated Product Team (IPT) Process

    The S&T Directorate Capstone Integrated Product Team (IPT) began 
with 11 Capstone IPTs: Information Sharing, Border Security, Chem/Bio 
Defense, Maritime Security, Cyber Security, Explosives Prevention, 
Cargo Security, People Screening, Infrastructure Protection, Inter-
operability, and Prep & Response.
    At their February 26th, 2008 meeting, the Technology Oversight 
Group (TOG) determined that the Explosives Prevention Capstone IPT 
would be split into two IPTs--one focused on Transportation Security 
and the other on Counter-Improvised Explosive Devices (C-IED). As the 
result of this breakout, there are now a total of 12 Capstone IPTs. The 
Transportation Security Capstone IPT will be chaired by the 
Transportation Security Administration (TSA) and address priorities 
relative to venues (Airports, Mass Transit, and Maritime), checkpoints 
including air cargo, and explosives characterization and homemade 
explosives (HME). The C-IED Capstone IPT will be chaired by the Office 
for Bombing Prevention (OBP) and the United States Secret Service 
(USSS) with the objective of providing the technology to address the 
IED threat per Homeland Security Presidential Directive 19.
    The IPTs program has been successful in many of its goals, 
including establishing budgetary funding priorities as part of the FY09 
budget process and to prioritizing the research and development needs 
of TSA. As of November 2007, the Explosives Detection Division Capstone 
IPT has shown that TSA is able to articulate to DHS S&T Directorate a 
clear understanding of its science and technology needs to procure 
solutions that not only meet stringent detection thresholds, but also 
meet throughput requirements in support of the aviation sector.
    TSA's involvement in setting user requirements for technologies 
developed or funded by S&T Directorate.
    TSA no longer has primary responsibility for funding or managing 
the research and development of airport screening technologies. TSA 
does however remain primarily responsible for developing functional 
requirements for new technologies, including setting threshold 
standards for detection, and for conducting operational tests and 
evaluations of these technologies in airports. In the future, TSA's 
involvement will likely vary based on the maturity and criticality of 
the technology, as well as the operational rigor required to implement 
it.
    Apart from the research and development efforts under S&T 
Directorate, TSA invests annually in engineering projects designed to 
improve or upgrade existing technology as new requirements are 
generated. In certain cases, existing technology is unable to support 
new requirements due to hardware or software constraints. In these 
instances, TSA undergoes a proposal solicitation process to evaluate 
new technology systems whose enhanced functionality will meet the 
revised requirements.

CONCLUSION

    The needs of people must continue to drive the focus of 
transportation security. The American people and the traveling public 
require a transportation infrastructure that can be secured without the 
expense of unreasonable burdens. The people in our workforce require 
investments that will allow them to perform effectively and grow 
professionally. The people within our homeland security partnerships 
and network require cooperation, communication, and leadership. The 
strength of these relationships has been fundamental to our progress 
and must continue to remain a focal point as we move forward.
    Mr. Chairman, thank you again for this opportunity to highlight the 
progress TSA has made in aviation security. I look forward to our 
continued work together and would be pleased to respond to your 
questions.

    Chairman Wu. Thank you very much, Mr. Tsao. Dr. Oxley, 
please proceed.

   STATEMENT OF DR. JIMMIE C. OXLEY, PROFESSOR OF CHEMISTRY, 
  UNIVERSITY OF RHODE ISLAND (URI); CO-DIRECTOR, URI FORENSIC 
  SCIENCE PARTNERSHIP; CO-DIRECTOR, DHS UNIVERSITY CENTER OF 
  EXCELLENCE IN EXPLOSIVE DETECTION, MITIGATION, AND RESPONSE

    Dr. Oxley. Thank you, Chairman Wu and Congressman Smith. I 
always like to talk to Smiths since I am married to one.
    The question I was asked--three questions and the third 
question I think Dr. Hallowell has answered admirably, so I am 
going to start with the question about current state of 
research and explosives, and I gave first of all a very general 
answer because we do--all countries do current research in 
explosives. We have a very minor effort in the U.S. The NRC 
report that was published in 2004 estimated we had two dozen 
chemists working in energetic material new chemical synthesis. 
Now, I am talking about new military explosives, I am not 
talking about counter-terrorism type issues when I say that. We 
do work on formulating new devices to make our explosives safer 
to handle, more effective, and have longer or shorter lifetimes 
depending on what it is we are trying to accomplish. Device-
centered research also occurs at the military labs. We are we 
are going on military labs and national labs. That is a general 
answer to a question of tell us about explosive research.
    Governments all over the world put restrictions on military 
explosives. Despite that fact, if you look at the table I gave 
you, you will see that half of the explosive incidents have 
been with military explosives, in fact, not with commercial 
explosives, which may speak very well to the control that folks 
exert on commercial explosives.
    You asked me a question about liquid explosives. Since 
solid explosives perform equally well to liquid explosives, we 
usually prefer to handle solid explosives, less handling 
problems. There is not new research, or very little, in new 
liquid explosives. However, there is much more literature on 
liquid explosives and what you see is terrorists pulling out 
that old literature and making use of things that are 
commercially available like hydrogen peroxide or nitro methane. 
These are not surprise materials, they are just taking 
advantage of what is already known.
    We do need to have new research in detection across the 
board. The issues with detecting liquid explosives are related 
to (a), if manufacturers detect what they are asked to detect, 
and they have said we would like to know ahead of time what we 
are going to be asked next. They can't afford to have 
instruments detecting a threat that hasn't been asked for 
because it raises a false alarm rate. So you go right where you 
are asked and that type of detection.
    The issues with liquids are we don't want to open the 
bottles, so it is a sealed container issue, and we have all the 
same issues if we have a well-filled solid to deal with. 
Detection issues must be addressed.
    Concerning the chemicals themselves, we need some basic 
research in detonation to see what commodity chemicals that we 
are not aware of could be detonable. We need basic research in 
that area. There was a famous chemist in the World War II 
timeframe who said give me enough peanut butter and I will blow 
up the world, and we don't know if he is right or not about 
that one.
    In this country we use 6.4 million metric tons of ammonium 
nitrate a year. Worldwide production is 39 million metric tons 
with nine million metric tons in transit. Urea is four-fold in 
terms of production and export of urea, and I have given you a 
table on those two issues. I consider those two the premiere 
explosive precursors to take a look at, and indeed the House 
and the Senate have passed the Secure Ammonium Nitrite law, and 
I believe that DHS is going to administer that. I think we need 
to look at a handful of explosive precursors for administrative 
control. That is very doable. We have been collecting this data 
since the 1980s, 30 years of data on who the end-users are. We 
just haven't really worked at making that a useful policy in 
terms of interdicting and following what happens from the 
manufacture to the end-user of specific precursors.
    If I now move my 26 seconds to detection issues, across the 
board we have issues on getting the sample to the detector. We 
need basic particle surface studies in that area. Those are 
primarily for the detectors that require a molecule of the 
explosive to get into the instrument.
    Our other detectors rely on a signal, an emission-type 
technology and those are bulk detectors and stand-off 
detectors. They have to have an emission signal. We need lots 
of development, but we need some basic research into what is 
physically, scientifically possible to do.
    And my last point is that the manufacturers across the 
board and they come into my lab and they say, help us out. We 
want to know what is happening next. And if you want to engage 
the wonderful research that universities can do and the vendors 
themselves can do, we need a little better flow of information.
    Thank you very much.
    [The prepared statement of Dr. Oxley follows:]

                 Prepared Statement of Jimmie C. Oxley

What is the current state-of-the-art in explosives research, especially 
as relates to homemade and liquid explosives? What are the key 
knowledge and capability gaps, and what types of research projects are 
needed to fill these gaps?

    Little explosives research in the United States (U.S.) is focused 
on making new explosives, i.e., new chemicals. A 2004 National Research 
Council (NRC) report (Advanced Energetic Materials) wrote: ``The U.S. 
effort in the synthesis of energetic materials at present involves 
approximately 24 chemists, several of whom are approaching 
retirement.'' In the National Labs or Military Labs new formulations 
and new devices may be sought with goals of safer, more destructive, 
longer or shorter shelf-life. Device-centered research undoubtedly 
proceeds under government contract labs, as well.
    Despite the fact that responsible governing bodies have emplaced 
various administrative controls to keep military explosives out of the 
hands of terrorists and criminals, international terrorism has relied 
heavily on these. Interestingly, military, rather than commercial, 
explosives have generally been their tool. This fact either speaks well 
of industrial safe guards or points the finger at State-sponsored 
terrorism.
    The military has few applications for liquid explosives. Solid 
explosives perform equally well and have less handling and storage 
issues. For this reason, little new research in liquid explosives is 
performed. However, the old literature is rife with descriptions of 
liquid explosives, many of which are readily prepared and some of 
which, e.g., hydrogen peroxide and nitromethane, are commercially 
available. Liquid explosives are a detection challenge only because, in 
the past, detection equipment manufacturers had not been asked to 
detect them and because U.S. policy is not to open bottles. This does 
not mean liquids cannot be detected; the difficulty is the same as with 
any number of military or homemade explosives under these conditions. 
Research in all areas of detection is required.
    The U.S. began to focus on homemade explosives after the bombing of 
the Murrah Federal Building (April 19, 1995). One tangible result was a 
1998 NRC book ``Containing the Threat from Illegal Bombings.'' In 2006 
various governments began to use that report as guidance on explosive 
precursors. What has not been done is to follow the report 
recommendations for testing of materials to identify actual explosive 
precursors.
    A methodical study is needed to identify the likely explosive 
precursors. We must probe the fundamentals of detonation to identify 
the energetic materials which could be made detonable with modest 
effort.
    My criteria for homemade explosive threats are simple: (1) the 
required synthesis must be minimal--mix and use or mix and separate; 
and (2) large amounts of the precursor must be available and readily 
acquired so that large a bomb can be assembled. [``Large'' bomb is part 
of the criteria with the rational that the bomb should be more of a 
threat than a gun or rifle.]
    First on my list of homemade explosives are ammonium nitrate (AN) 
formulations and urea nitrate.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Provisional Irish Republican Army (PIRA) made kilogram-scale 
bombs mixing AN with icing sugar. Timothy McVey used AN with the 
traditional industrial fuel--diesel. In 2006 the U.S. manufactured 6.4 
million metric tons AN, its usage split between agricultural and 
industrial applications. Indeed, most commercial explosives are AN 
based. Worldwide about 39 million tons of AN are manufactured annually 
at about 200 chemical plants and about nine million tons of AN end up 
on the export market.
    Worldwide urea production is significantly greater than AN--133 
million metric tons annually and 31 million tons in export. Urea is 
used in agriculture, pharmaceuticals, NOX abatement, and melamine 
synthesis (which with formaldehyde, forms resins used in adhesives, 
laminates, coatings and textile finishes). Urea is made from ammonia 
and carbon dioxide; typically plants producing ammonia produce urea as 
well. Ammonia is produced using natural gas and nitrogen from air; 
thus, areas with cheap natural gas make ammonia: China, Russia, 
Ukraine, the Middle East and Latin America. Urea plus nitric acid form 
urea nitrate; therefore, it is not surprising that urea nitrate, rather 
than AN, is frequently used by terrorists in the Middle East.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In investigating all avenues of preventing terrorist bombings, we 
should consider administrative controls on the most likely to be used 
homemade explosive precursors. We should consider administrative 
tracking of a small number of precursor chemicals (e.g., AN, urea, 
nitric acid, hydrogen peroxide, chlorates) from manufacturer to end-
user. Such a program would involve identification of potential 
precursors and their legitimate place in society. It would require the 
cooperation of the manufacturers from the time the product left the 
factory through distributors, traders, and transporters to end-users. 
Such a system would not evolve overnight, but it should be possible 
with modern computer technology and international cooperation. Of 
course, it will not stop all diversions, any more than our present 
controls stop illicit use of military explosives. A 2007 NRC report 
``Countering the Threat of Improvised Explosive Devices'' recommends 
among other areas of research: ``Perform case studies of actual IED 
construction and events to determine whether and how resource control 
might be implemented, with the eventual goal of developing the ability 
to model the connection between resources and the IED threat chain.''

How does current university research in the field of explosives and 
explosives detection contribute to technology development for aviation 
security? How is university research coordinated between institutions 
and with the Federal Government?

    Failing to prevent a bomb from being made, we must consider 
detection of the bomb. Detection methodologies can be divided into 
those which require the actual explosive molecule to enter the 
instrument--these are called particle or vapor detection--and those 
which can detect characteristic emissions from the bulk explosive. 
Emission detection techniques can be passive, relying on a natural 
emission from the chemical, or active, probing the chemical with some 
sort of radiation to cause emission. Emission detectors can be 
differentiated as those having the potential to see, (1) with special 
detail, through sealed containers--check luggage or cargo--``bulk'' 
detection; or (2) through the atmosphere at distances--``standoff'' 
detection.
    Trace techniques are at various levels of development. Even the 
commonly fielded ion mobility spectrometer (IMS) faces many operational 
challenges. For all trace techniques probably the toughest problem is 
getting the sample, the explosive molecule, into the detector. Solid 
explosives, generally, have low vapor pressure. Therefore, detection 
equipment attempts to sample microscopic particles, rather than vapor. 
To get a ``detect'' particles of explosive must be present; harvesting 
techniques must remove the particles from the surface; and the transfer 
technique must get the particles into the business end of the detector. 
Basic surface-particle interactions need to be studied. I understand 
the National Institute of Standards and Technology is working in this 
area and the Transportation Security Lab is funding further work.
    Among emission detection techniques we find some of the most 
significant successes and the biggest gaps. As you know standoff 
detection and cargo screening need further research. As with other 
detection technologies we can expect to see imperfect systems fielded, 
but they can only improve with time, funding, and experience. One of 
the recommendations of the NRC report (``Countering the Threat of 
Improvised Explosive Devices'' 2007) I would like to emphasize: 
``Determine the fundamental physical limits on the active and passive 
detection of arming and firing systems, as well as the physical and 
chemical limitations for trace and standoff detection.''
    One last gap I wish to highlight. If Universities are to 
significantly contribute their vast research skills to the National 
needs, we need a more open access to information in this area of 
threats and detection. I fully understand the need not to give 
terrorists information, but in many cases it is those who would help us 
whom we are keeping in the dark. Uniformly the technologies providers 
have asked: ``Increase communication to technology suppliers with 
respect to emerging threats, scenarios and threat levels.'' ``Provide 
threat and precursor information to enable development of broad 
detection strategies.''

                     Biography for Jimmie C. Oxley
    Dr. Jimmie C. Oxley is Professor of Chemistry at the University of 
Rhode Island (URI) and Co-Director of the URI Forensic Science 
Partnership and Co-Director of the recently announced DHS Center of 
Excellence in Explosive Detection, Mitigation and Response. Dr. Oxley 
has authored 80 papers on energetic materials. She worked with the FBI 
simulating the World Trade Center bombing, with Forensic Explosive Lab 
of the Defense Science and Technology Lab (UK) examining large 
fertilizer bombs, and with ATF/TSWG studying the behavior of pipe 
bombs. Dr. Oxley has taught over two dozen explosive short courses for 
various government labs and agencies and has served on five National 
Research Council panels: Commercial Aviation Security (1995-98); 
Marking, Rendering Inert, & Licensing of Explosive Material (1997-98); 
Chemical Weapon Destruction (1998-99); Advanced Energetic Materials 
(2001-02); Basic Research Needs to Interrupt the Improvised Explosive 
Device Delivery Chain (2005-08).

    Chairman Wu. Thank you very much, Dr. Oxley. Dr. Drury, 
please proceed.

 STATEMENT OF DR. COLIN G. DRURY, DISTINGUISHED PROFESSOR AND 
CHAIR, DEPARTMENT OF INDUSTRIAL AND SYSTEMS ENGINEERING, STATE 
               UNIVERSITY OF NEW YORK AT BUFFALO

    Dr. Drury. Thank you, Mr. Chairman, for inviting me to this 
hearing on such an important issue. I am a Human Factors 
Engineer from University at Buffalo, State University of New 
York. My research covers human performance in inspection 
systems from manufacturing industry through civil aviation to 
detection of threats on people. I have worked with people on 
the front lines such as TSA screeners and also been a member of 
committees on research in this field such as the NRC's 
committee on assessment of security technologies.
    Human factors engineering uses data on the performance of 
humans, for example, security screeners; in complex systems, 
such as aviation security; to design better systems that make 
best use of the unique capabilities of both human and the 
automated devices to reduce error and increase throughput. 
There are three aspects of aviation security, three measures 
that we have already heard about. These are important, mis-
threats, false alarms, and time taken to process each item. All 
of these translate into two overall measures, risk and delay.
    To integrate human factors engineering into the design of 
future technological systems, we can use successful design 
techniques from other areas, design of military systems, civil 
aviation cockpits, chemical and nuclear facility control rooms 
have all be done.
    The first step is to recognize that humans are going to be 
present in security systems. The traveling public is no more 
trusting of completely automated security systems than they are 
of unmanned airliner cockpits. The issue is not whether we can 
eliminate the human but how best to use the human who is going 
to be there.
    An example is the in-line check baggage inspection system 
at many airports. It is based on 3-D scanning of each bag. 
Automation is used to highlight those areas that contain a 
potential threat. This is a search function. The highlighted 
bag is shown to the human operator who has to mark it for 
further inspection or pass it. This is a decision function. 
Humans are relatively quite reliable in decisions whereas 
machines are much more reliable in search. So this is quite 
sensible.
    In general, automation is allowed to perform rapidly within 
strict rules while humans provide the flexibility to respond 
when the rules don't apply.
    The next steps after this are to design specifically for 
the humans. They human interface with the technology, the 
training programs, they interface between people, for example, 
at check points. There are standard techniques in human factors 
that have been used in these other fields to do this.
    Currently, the TSA has professionals within the human 
factors engineering area with expertise at the Transportation 
Security Lab. And all of these are currently listed as members 
of the Human Factors and Ergonomics Society, but they have been 
working extensively with researchers and manufacturers on 
improvements to the interfaces as well as longer-term research 
studies such as developing selection procedures for screeners 
and human problems in container security. They have also funded 
some more fundamental studies of human factors engineering and 
security. For example, I have got a one-year grant from them at 
SUNY.
    Could more be done? Certainly. The last time I visited a 
manufacturer which was a couple years back, there was little 
evidence of using human factors engineering professional 
expertise in design of systems. Without early involvement of 
human factors engineering, the human in the system may not make 
the ultimate decisions resulting in increased risk and 
passenger delay.
    We can measure the effectiveness of human factors 
engineering as we have been talking about in security equipment 
in two ways. The first way is to evaluate whether the machine 
shows evidence of having human factors engineering used. The 
second way and the third way is to evaluate the performance of 
the whole system, the human plus the equipment. And if this is 
done correctly, with performance measures and observations 
measures, we can measure the errors and performance times to 
get a figure of merit for the system. But the observations 
provide the locus of any performance defect, so we can see 
perhaps why these things are happening.
    To sum up, overall there is really no down-side to using 
human factors engineering in the design of security systems. 
Without it predictable performance lapses can occur, leading to 
increased risk and passenger delays. The additional cost of 
incorporating human factors engineering early in the process 
has been found in aviation and military domains to be rather 
low.
    Thank you for your time.
    [The prepared statement of Dr. Drury follows:]

                  Prepared Statement of Colin G. Drury

    In your testimony please answer the following questions:

1.  What role does human factors engineering play in the design and 
testing of aviation security technology? How well do current aviation 
security technologies incorporate human factors engineering and human-
technology interface principles?

2.  How does human factors engineering impact the effectiveness of 
these technologies to detect or deter threats? What are the possible 
detrimental effects of not involving human factors engineers throughout 
the technology design process?

3.  How should the Transportation Security Administration and 
Transportation Security Laboratory test and evaluate whether human-
technology interface principles have been properly applied in the 
design and manufacturing of aviation security technologies?

    I am a Human Factors Engineer from University at Buffalo: State 
University of New York. I have spent much of my life in research and 
intervention in the area of human performance in inspection systems. 
This started in manufacturing industry (cars, electronics, glass 
products) but transitioned to aviation inspection of civil airliners 
and inspection of people and goods for security threats. My CV provides 
samples of the technical papers published in inspection for 
manufacturing, aircraft maintenance and security. This work, as with 
all Human Factors Engineering (HFE), involved working with people on 
the front lines (e.g., maintenance technicians, TSA screeners) as well 
as membership in committees on research and development in this field 
(e.g., the NRC's Committee on Assessment of Security Technologies in 
Transportation, and the FAA's Research, Engineering and Development 
Advisory Committee).
    Human Factors Engineering (HFE) is a discipline dating from World 
War II that uses data on the performance of humans (in our case 
security screeners, airline passengers) in complex systems (in our case 
aviation security) to design better systems that make the best use of 
the unique capabilities of both humans and automated devices while 
reducing the impact of their respective limitations. The diagram of the 
airport security system used by the National research Council (Figure 
1) shows the level of complexity and the numerous places where humans 
can both make errors and act to prevent errors.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Standard texts in this area include Wickens, Lee, Liu and Gordon-
Becker (2002). It has a record of designing systems to prevent human 
error and inefficiency, beginning in the military but subsequently 
moving into civil aviation and industrial systems. If HFE is not used, 
then often the system errors only become apparent when the system is 
put to operational use, for example the control room and training 
deficiencies at the Three Mile Island nuclear power station.
    There are three aspects of aviation security inspection performance 
where humans have a large impact: missed threats (failure to stop a 
threat), false alarms (stopping a person/item that is not a threat) and 
time taken to process each passenger or baggage items. All translate 
into two system performance measures: risk and delay. HFE applied to 
aviation security inspection can, and has, addressed each of these. A 
good example is the Threat Image Projection System (TIPS) which 
presents images of guns, knives and IEDs to screeners performing an X-
ray screening task. This counteracts the known human tendency to detect 
fewer threats when there is a low probability that any single item 
contains a threat. TIPS has the added benefit of providing embedded 
training and performance measurement for screeners. TIPS act as a 
motivator to screeners, as well as reducing monotonly, but it must be 
technically well-executed to prevent non-threat-related artifacts from 
cuing the screener that a TIPS image is being displayed. HFE tells us 
that these three aspects of performance trade off against each other. 
In any given system, fewer missed threats are accompanied by more false 
alarms (e.g., National Research Council, 2007, p. 25; McCarley et al., 
2004). Also there is a Speed-Accuracy Trade-Off in that fewer threats 
are detected if insufficient time is devoted to the inspection of each 
person or item (Drury, Ghylin and Holness, 2006). Mathematical 
relationships can be used to model these trade-offs (Drury, Ghylin and 
Schwaninger, 2007), so that we can deploy security systems to meet 
specific needs. The interaction between the screener and the technology 
is not the only application of HFE to security systems: passengers too 
interact with the system. Obvious examples are queuing at airports, 
where the screening delays turn into passenger dissatisfaction (Marin, 
Drury, Batta & Lin, 2008), and HFE input into helping novice passengers 
deal with the complexities of required tasks in a timely manner.
    To integrate HFE into design of future technological systems for 
aviation security, successful design techniques from other domains can 
be used. HFE has been successfully applied to the design of most 
military systems, to civil aircraft cockpits and to chemical and 
nuclear facility control rooms. The issue in all of these, as in 
aviation security, is to use data on human behavior to blend the 
automation and human components of a system so that human and 
automation each do what they do best. This is known as Allocation of 
Function (e.g., Hollnagel and Bye, 2000; Lee and Moray, 1992) and has 
been applied to inspection tasks previously (Hou, Lin and Drury, 1993)
    The first step is to recognize that humans will be present in all 
security systems. The traveling public is no more trusting of 
completely automated security systems than they are of unmanned 
airliner cockpits. The issue is not whether we can eliminate the human, 
but how best to use the human who will be there. An example is the in-
line checked baggage inspection systems at many airports. The 
technology is based on 3-D scanning of each bag to build a 3-D image of 
the bag. Automation is used to locate areas of potential threat (e.g., 
atomic numbers associated with explosives) within the whole bag, i.e. a 
search function. The bag image with the potential threat area 
highlighted is displayed to the operator who then has the decision 
function of choosing to pass the bag as ``no threat'' or mark it for 
further screening, typically hand search (which is itself not error 
free). This allocation of functions between the automation (search) and 
the human (decision) capitalizes on known strengths and limitations of 
humans in inspection (Hou, Lin and Drury, 1993). For humans the search 
function is consistently quite error-prone, while the decision function 
(with suitable training and aiding) can be reliable (Drury and Spencer, 
1997). Overall, automation provides the ability to take rapid and 
consistent action within strict rules, while humans provide the 
flexibility to respond when the rules do not apply (e.g., Parasuraman, 
Sheridan and Wickens, 2000).
    Having decided what roles humans and automation should play in each 
future system, the next steps involve designing specifically for the 
human. This means working from the human outwards rather than the 
technology inwards. It means devising the interfaces between the human 
operator and the technology, identifying the training (and retraining) 
required for top performance, and designing the interfaces between the 
front-line operator (e.g., screener) and others in the system (e.g., 
other front-line personnel, supervisors, law enforcement officers, 
etc.). Interface design uses standard HFE methods with data and models 
of human functioning (from sensory and cognitive capabilities to 
physical size and strength) and applies it to design of the physical 
interface and computer software (Wickens et al., 2002). Applications 
range from comfortable seating and sightlines (e.g., for X-ray 
screeners) to human computer interaction (e.g., display and response 
logic for body scans or checked baggage inspection) using standard 
texts, e.g., Helander, Landauer, & Prabhu (1997). Training design can 
be based on well-known adult learning techniques. Design of human--
human interaction can use techniques from either Crew Resource 
Management (CRM) or socio-technical systems design (STS) as found in 
Helmreich, Merritt & Wilhelm (1999) and Taylor and Felten (1993) 
respectively. Many comprehensive systems exist for including the human 
in the design of complex systems, e.g., Cognitive Work Analysis 
(Vicente, 1999) and even earlier in Systems Analysis (Singleton, 1974). 
All of these methods will help eliminate errors in the final human-
machine system.
    Currently TSA has HFE professional expertise at the Transportation 
Security Laboratory, although none of these professionals are currently 
listed as members of the Human Factors and Ergonomics Society. They 
have worked with researchers and manufacturers on short-term 
improvements to the interfaces as well as on longer-term research 
studies such as developing selection procedures, socio-technical 
systems design of the whole security checkpoint and human problems in 
container security. They have also funded some more fundamental studies 
applying cognitive science to security modeling, including a one-year 
grant to me at UB:SUNY as listed in my disclosure letter to the 
committee. Could more be done? Most certainly. There are new ideas 
where HFE expertise can be incorporated early in the design process. A 
recent example is data fusion, that involves humans as one of the many 
sensors whose data is fused to enhance decision-making, (e.g., NRC, 
2007). Most manufacturers and researchers still see the physics and 
chemistry of detection as central, with design for the human in the 
system limited to training design and design of the computer screens 
and response keys. The last time I visited a manufacturer (for the NRC 
Committee) was several years ago but there was no evidence of using HFE 
professional expertise in systems design. Without early involvement of 
HFE, the human in the system may not make optimum decisions, and by 
then only small changes can be made to the system at evaluation time. 
This does not ensure that risk and passenger delays have been 
minimized.
    How can we measure the effectiveness of HFE design in security 
equipment? This is important to ensure that we are indeed designing the 
systems optimally. Two alternatives are possible: examining the 
equipment for evidence that HFE has been used in its design, and/or 
evaluating the complete system (equipment plus human) and analyzing its 
performance and errors. Both have been used successfully. A design 
checklist can be rather simplistic for complex equipment embedded in 
operational systems, but the design procedures can also be reviewed to 
see how the deasign team took HFE into account. The TSL has used such a 
checklist to assist machinery designers in applying HFE to their 
products. The current, and recommended, method is to evaluate the 
performance of the complete system in as close as possible to real use 
conditions. Here we can measure the errors and performance times and 
also observe and interview users. This evaluation gives a figure of 
merit for the system (misses, false alarms, delays) and uses behavioral 
observation and structured interviews to examine the locus of any 
performance deficits.
    Overall, there is no down-side to using HFE in design of security 
systems. Without it, predictable performance lapses occur, leading to 
increased risk and passenger delays. The additional cost of 
incorporating HFE has been found in aviation and military domains to be 
low.

References

Drury, C.G., 1994, Function allocation in manufacturing. In S.A. 
        Robertson (ed), Contemporary Ergonomics 1994 (London: Taylor & 
        Francis, Ltd), 2-16.

Drury, C.G., Spencer, F.W. (1997). Measuring human reliability in 
        aircraft inspection. Proceedings of the 13th Triennial Congress 
        of the International Ergonomics Association '97, Tampere, 
        Finland, Vol. 3, 34-35.

Drury, C.G., Ghylin, K.M. & Holness, K. (2006) Error analysis and 
        threat magnitude for carry-on bag inspection. Proceedings of 
        the Human Factors and Ergonomics Society 50th Annual Meeting--
        2006, 1189-1193.

Drury, C.G., Ghylin, K.M. & Schwaninger, A. (2007) Large-Scale 
        Validation of a Security Inspection Model, Contemporary 
        Ergonomics 2007, Taylor & Francis, London.

Helander, M., Landauer, T. & Prabhu P. (1997) Handbook of Human-
        Computer Interaction (2nd Edition) Amsterdam, North Holland.

Helmreich, R.L., Merritt, A.C., & Wilhelm, J.A. (1999). The evolution 
        of Crew Resource Management training in commercial aviation. 
        International Journal of Aviation Psychology, 9(1), 19-32.

Hollnagel, E., and Bye, A. (2000). Principles for Modeling Function 
        Allocation. Int. J. Human-Computer Studies. Vol. 52, pp. 253-
        265.

Hou, T.-S., Lin, L. and Drury, C.G. (1993). An Empirical Study of 
        Hybrid Inspection Systems and Allocation of Inspection 
        Function. International Journal of Human Factors in 
        Manufacturing, 3, 351-367.

Lee, J. and Moray, N. (1992). Trust, control strategies and allocation 
        of function in human machine systems. Ergonomics 35(10), 1234-
        1270.

Marin, C.C. Drury, C.G., Batta, R. and Lin, L. (2007) Server Adaptation 
        in an Airport security System Queue. OR Insight, 20.4, 22-31.

McCarley, J.S., Kramer, A.F., Wickens,C.D., Vidoni, E.D. & Boot, W.R. 
        (2004) Visual Skills in Airport Security Screening. 
        Psychological Science, 15(5), 302-306.

National Research Council (2007) Fusion Of Security System Data To 
        Improve Airport Security, The National Academies Press, DC.

Parasuraman, R., Sheridan, T.B. and Wickens, C.D. (2000). A model for 
        types and levels of human interaction with automation. IEEE 
        Transactions on Systems, Man and Cybernetics--Part A: Systems 
        and Humans, Vol. 30 (3), May 2000.

Singleton, W.T. (1974) Man-Machine Systems (Penguin, UK).

Taylor, J.C. and Felten, D.F. (1992) Performance by Design, Prentice 
        Hall.

Wickens, Lee, Liu and Gordon-Becker (2002) Introduction to Human 
        Factors Engineering (2nd Edition), Prentice-Hall, NJ.

                      Biography for Colin G. Drury

PROFESSIONAL PREPARATION

University of Birmingham, Ph.D., Engineering Production specializing in 
        Ergonomics, 1968

University of Sheffield, B.S., Honors Physics, 1962

APPOINTMENTS

2007-present--SUNY Distinguished Professor, University at Buffalo, 
        SUNY.

2002-2007--UB Distinguished Professor, University at Buffalo, SUNY.

1979-2002--Professor of Industrial Engineering, University at Buffalo, 
        SUNY.

1976-1979--Associate Professor of Industrial Engineering, SUNY-Buffalo.

1972-1976--Assistant Professor of Industrial Engineering, SUNY-Buffalo.

1968-1972--Manager of Ergonomics, Pilkington Brothers Ltd., St. Helens, 
        England.

1967-1968--Visiting Assistant Professor of Industrial Engineering, 
        UMass at Amherst.

1962-1964--Research Engineer, Motor Industry Research Association, 
        Nuneaton, England.

INSPECTION ACTIVITIES and MAJOR AWARDS

    Colin Drury has been actively researching inspection tasks since 
the 1970s, for which he was awarded the Bartlett Medal of the 
Ergonomics Society in 1981. In the 1980s he started applying this to 
aircraft safety inspection through a series of FAA grants, resulting in 
successful Best Practices Guides to several Non-Destructive Inspection 
techniques used in aviation. For this work he was awarded the FAA's 
Excellence in Aviation Research Award in 2005, and the Human Factors 
and Ergonomics Society's A.R. Lauer Award in 2005. In the 1990s he 
applied this to security inspection with contracts from the Air 
Transport Association and Atlanta's Hartsfield Airport. He has served 
on several NRC/NAS committees and panels on aviation security 
technology, during which he has studied the security systems at many 
airports in USA and Europe. For this work with TSA and FAA he was 
awarded the American Association of Engineering Societies' Kenneth 
Andrew Roe Award in 2006. He is currently a member of INTERTAG, the 
international human factors coordinating group on aviation security. In 
2003 he was awarded a TSA grant to form the Research Institute on 
Safety and Security in Transportation (RISST) at University at Buffalo. 
In 2008 he was elected as Honorary Fellow in The Ergonomics Society, 
UK.

PROFESSIONAL PUBLICATIONS (OUT OF OVER 300)

(i) PUBLICATIONS MOST RELATED TO TESTIMONY
 1.  Marin, C.C. Drury, C.G., Batta, R. and Lin, L. (2007) Server 
Adaptation in an Airport security System Queue. OR Insight, 20.4 22-31.

 2.  Drury, C.G. (2001). A unified model of human security inspection. 
Proceedings of Third International Aviation Security Technology 
Symposium, Atlantic City, NJ, 27-30.

 3.  Drury, C.G., Hsiao, Y-L., Joseph, C., Joshi, S., Lapp, J. and 
Pennathur, P.R. (2008) Posture and performance: sitting vs. standing 
for security screening, Ergonomics, 51.3, 290-307.

 4.  Drury, C.G., Ghylin, K.M. & Holness, K. (2006) Error analysis and 
threat magnitude for carry-on bag inspection. Proceedings of the Human 
Factors and Ergonomics Society 50th Annual Meeting--2006, 1189-1193.

 5.  Ghylin, K.M., Drury, C.G., Batta, R and Lin, L. (2007) Temporal 
Effects in a Security Inspection Task: Breakdown of Performance 
Components Proceedings of the Human Factors and Ergonomics Societ 51sty 
Annual Meeting--2007, 93-97.

 6.  Drury, C.G., Ghylin, K.M. & Schwaninger, A. (2007) Large-Scale 
Validation of a Security Inspection Model, Contemporary Ergonomics 
2007, Taylor & Francis, London.

 7.  Ghylin, K.M., Drury, C.G., & Schwaninger, A. (2006). Two-component 
Model of Security Inspection: Application and Findings. Proceedings of 
the 16th World Congress of the International Ergonomics Association, 
2006.

 8.  Panjawani and Drury, C.G. (2003). Effective interventions in rare 
event inspection. Proceedings of the Human Factors and Ergonomics 
Society 47th Annual Meeting, 2003, 41-45.

 9.  Drury, C.G., Saran, M. and Schultz, J. (2004) Temporal Effects in 
Aircraft Inspection: What Price Vigilance Research? Proceedings of the 
Human Factors and Ergonomics Society 48th Annual Meeting--2004, 113-
117.

10.  Drury, C.G. (2001). Human Factors and Automation in Test and 
Inspection, In G. Salvendy, Handbook of Industrial Engineering, Third 
Edition, Chapter 71, John Wiley & Sons, New York, 1887-1920.

11.  Hong, S.-K. and Drury, C.G. (2002). Sensitivity and validity of 
visual search models for multiple targets. Theoretical Issues in 
Ergonomic Science, 1-26.

12.  Drury, C.G., Green, B.D., Chen, J. & Henry, E.L. (2006) Sleep, 
sleepiness, fatigue, and vigilance in a day and night inspection task, 
Proceedings of the Human Factors and Ergonomics Society 50th Annual 
Meeting--2006, 66-70.

(ii) OTHER SIGNIFICANT PUBLICATIONS

 1.  Karwan, M., Morowski, T.B. and Drury, C.G. (1995). Optimum Speed 
of Visual Inspection Using a Systematic Search Strategy. IIE 
Transactions, 27, 291-299.

 2.  Hou, T.-S., Lin, L. and Drury, C.G. (1993). An Empirical Study of 
Hybrid Inspection Systems and Allocation of Inspection Function. 
International Journal of Human Factors in Manufacturing, 3, 351-367.

 3.  Baveja, A., Drury, C.G., Marwan, M.H. and Malon, D.M. (1996). 
Derivation and Test of an Optimum Overlapping-Lobes Model of Visual 
Search. IEEE Transactions on Systems, Man and Cybernetics--Part A: 
Systems and Humans, 26(1), 161-168.

 4.  Drury, C.G. (1997). Ergonomics and the quality movement (The 
Ergonomics Society 1996 Lecture). Ergonomics, 40(3), 249-264.

 5.  Mazumder, S., Drury, C.G. and Helander, M. (1997). Binocular 
Rivalry as Aid in visual search-r--95/539A, Human Factors, 39(4), 642-
650.

 6.  Drury, C.G. (2001). Inspection. In W. Karwowski, (Ed.), 
International Encyclopedia of Ergonomics and Human Factors, Taylor and 
Francis, Inc., 1249-1253.

 7.  Drury, C.G. (2001). Human Factors and Total Quality Management. In 
W. Karwowski, (Ed.) International Encyclopedia of Ergonomics and Human 
Factors, Taylor and Francis, Inc., 1246-1248.

 8.  Drury, C.G. (2005). Inspecting, Checking and Auditing, 
particularly of Human Factors. In G. Salvendy (ed.), Handbook of Human 
Factors and Ergonomics, J. Wiley & Sons, Inc., NJ.

 9.  Drury, C.G. (1992). Design for Inspectability. In M.H. Helander 
and M. Nagamachi (ed), Design for Manufacturability: A Systems Approach 
to Concurrent Engineering and Ergonomics. Taylor & Francis, Ltd., 
London.

10.  Drury, C.G. (2003). Service Quality and Human Factors. AI and 
Society, 17(2), 78-96.

11.  Drury, C.G. (1985). Stress and Quality Control Inspection. Chapter 
7 of Job Stress and Blue Collar Work. C.L. Cooper and M.J. Smith (Eds.) 
John Wiley, Chichester, UK.

12.  Human Reliability in Quality Control. (1975) C.G. Drury and J.G. 
Fox (Eds.), Taylor & Francis, London.

13.  Drury, C.G. (2000). Global Quality: linking ergonomics and 
production. International Journal of Production Research, 38(17), 4007-
4018.

SERVICE ON NATIONAL RESEACH AND ADVISORY COMMITTEES

1.  National Academy of Sciences/National Research Council

        <bullet>  Human Factors Committee, member, 1997-2004

        <bullet>  Panel on Musculo-Skeletal Disorders, co-chair, 1998

        <bullet>  Workshop on Work-related Musculoskeletal injuries: 
        The research base, 1998, co-chair of the steering committee

        <bullet>  Panel on Musculoskeletal Disorders and the Workplace: 
        Low Back and Upper Extremities, member 1999-2001

        <bullet>  Committee on Review and Evaluation of the Army 
        Chemical Stockpile Disposal Program, member 1992-1996

        <bullet>  Committee on Evalauation of Chemical Events at Army 
        Chemical Agent Disposal Facilities, member 2000-2002

        <bullet>  Committee on Monitoring at Army Chemical Agent 
        Disposal Facilities, member 2004-2005

        <bullet>  Committee on Deployment of New Technology for 
        Aviation Security, member, 1999-2004

        <bullet>  Committee on Assessment of Security Technologies in 
        Transportation, member, 2004-

        <bullet>  Committee Continuing Operations at Army Chemical 
        Agent Disposal Facilities, member 2006-

2.  National Aeronautics and Space Administration, Chair, Science and 
Technology Working Group (STWG), 2000-2004

3.  Transportation Security Administration, Scientific Advisory Panel, 
2004-2005.

4.  Federal Aviation Administration Research, Engineering and 
Development Advisory Committee (REDAC), member 2002-2007, Chair Human 
Factors Committee, 2003-2004.

5.  International Aviation Security Human Factors Technical Advisory 
Group (InterTAG), member, 2004-

                               Discussion

    Chairman Wu. Thank you very much. At this point, we will 
open our first round of questions, and the Chair recognizes 
himself for five minutes.
    It is not that we don't have better things to do, but we do 
fly a lot. We Members of Congress do fly a lot, and we, at 
times, well, we speculate about all sorts of things. And after 
September 11, one of the things we speculated about is if you 
were to bring down an airplane, how would you do it? And top of 
the list for those of us in the Oregon delegation was a 
flammable liquid. That was in the fall of 2001 or the winter of 
2002, and yet my recollection is that restrictions on liquids 
or the focus on liquids didn't occur until much more recently.
    Now, you all are responsible for implementation and for 
research. We Members of Congress are not scientists. We are not 
reputed to be very smart, but how come we were thinking about 
something that TSA didn't start looking for until much later, 
and was research being done in this field prior to the 
implementation of limitations on liquids on board airplanes? 
Dr. Hallowell, Mr. Tsao, would you care to handle that first?
    Dr. Hallowell. Well, first off, I believe the FAA prohibits 
handling flammable liquids on aircraft, and I know this because 
they took a whole bunch of rum from me coming back from an 
island.
    Chairman Wu. Well, I know the FAA prohibits that, but there 
was no method of--there was not an active search or 
prohibition--I mean, the prohibition might have been in place 
but I believe until relatively recently you could take a large 
bottle of something, whether it is rum or water, on board an 
airplane. When did the ban go into place where it was actually 
looked for by the TSA?
    Mr. Tsao. We actually implemented the ban on August 10th of 
2006.
    Chairman Wu. So that is a four and one-half year window----
    Mr. Tsao. Yes, sir.
    Chairman Wu.--from September 11 to the ban.
    Mr. Tsao. Yes, sir.
    Chairman Wu. Did folks think that that might be a threat?
    Mr. Tsao. We did look at, and some of that predated my time 
at the agency, but we did look at the various threats to civil 
aviation and the threats of--whenever we look at risk, we 
really look at three components of risk. One, what is the 
threat stream? Is there an adversary interested in this? What 
is the adversary's ability to carry that out? Two, what is the 
consequence? What will happen if the adversary, and three, what 
is the inherent vulnerability of the system? So I think when 
you start looking at those factors, the threat of a flammable 
liquid taking down an aircraft is relatively low compared to 
other threats at the time. During August of 2006, it was 
determined that there was a new threat using a liquid explosive 
which was judged to be powerful enough to cause catastrophic 
damage.
    Chairman Wu. Forgive me, Mr. Tsao, if I am, you know, 
imagining things that can't happen, but it was another Member 
of our delegation, one much more senior--who is much more 
senior than I and with substantial aviation experience. The 
methodology would just be to take a bottle of gasoline, run 
down the aisle, and have one person behind you ignite the 
stream and the consequences would be pretty dire.
    Mr. Tsao. Relative to other threats we are facing, sir. We 
believe that is a lower threat.
    Dr. Oxley. Chairman, may I say something?
    Chairman Wu. Please.
    Dr. Oxley. The difference between a deflagration, a burn, 
and a detonation is huge.
    Chairman Wu. Yes.
    Dr. Oxley. And I think that is what Mr. Tsao is telling 
you, that relatively speaking, the detonation threat that came 
in late 2006, the summer of 2006, was substantial.
    Chairman Wu. But if you have a burning cabin, I mean, that 
is a bit of a concern in an airplane, isn't it?
    Dr. Oxley. Certainly, and there is a whole group I have run 
into in--I don't know if they are FAA or TSA--that is looking 
at protecting aircraft from fire.
    Chairman Wu. Well, you know, the point of the question is 
not what has happened in the past. The point of the question is 
are you properly identifying threats for the future?
    Mr. Tsao. We believe so. Again sir, take three parts of our 
methodology. What are the adversaries looking at, what are the 
inherent vulnerabilities to the system, and what are the 
potential consequences, primary and secondary?
    Dr. Oxley. And I wanted to add that prior to the overt ban 
on liquids, our lab was already doing research because we had 
been asked by a federal agency to do so. So this was not a 
surprise that these liquids were a possibility. It was just a 
prioritization. If everything is looked at once, you miss the 
high priority items.
    Chairman Wu. I understand, at least among the Oregon 
delegation, the flammable liquid scenario is our number one, 
and we found it rather curious that that was not on other 
folks' list. Dr. Oxley, what you had to say is the most 
comforting thing that I have heard thus far.
    I recognize the Member from California for five minutes--
Nebraska. My apologies. It is California without an ocean.
    Mr. Smith. I will get back to you on that.
    Chairman Wu. California with a football team.
    Mr. Smith. Needing a little extra work there. But thank 
you, Chairman Wu, and witnesses.
    Again, I am not an expert. You are. I guess if routine or 
repetition makes us experts, some of us could be in terms of 
airline security.
    I think Dr. Drury you might be best to respond to this, but 
how do you decide, you know, what the threshold is for a 
discretionary decision as someone is--as a TSA worker--is going 
through a check point?
    Dr. Drury. The rules are fairly clearly written by this TSA 
and TSL. But the point about having the human in there is that 
they make fairly routine decisions pretty well. The better you 
can organize it so that they are doing what is called rule-
based work so they follow a set of rules, just as in landing an 
airliner. You have a set of rules, a rule-based decision 
system. So you have a pilot in there who can look for things 
that aren't covered by the rules, look for the unusual things. 
The person who found explosives coming over the border into 
Washington State, for example, customs agent, security agent 
there, this was a beautiful piece of human following things 
that weren't directly part of the thing you have to do every 
time. So humans have two functions, one is to follow a set of 
rules where those rules apply, and they do that reasonably 
well. They don't do it perfectly but neither do machines. And 
the other one is to bring their unique human capabilities into 
there of reasoning it out so it is not a rule-based decision. 
It is called a knowledge-based decision where you work things 
out from first principles. Yes, this looks suspicious. I will 
do this.
    Mr. Smith. So there is--I mean, I don't expect a quick 
formula necessarily, but I am curious as to how or what the 
approach is. Sometimes what would appear to be common sense to 
me doesn't appear to be common sense as I go through a 
checkpoint at an airport. And I am just using my own anecdotal 
experience from repetition. But can you explain how perhaps 
they eliminate some of those decisions?
    Dr. Drury. Many of them are rules they have to follow. For 
example, when they check on your ticket and so on. So there are 
strict rules they have to follow here. And at the checkpoint, 
they have got higher levels of authority. They can pass things 
up, too, if needed. So they are not entirely on their own. But 
they are the first people who can trigger a response. So if 
they trigger a response, the system can move ahead. If they 
don't trigger a response, it doesn't. So in some ways it is 
reasonably optimum for them to make some false alarms to make 
sure that they have got, they have covered the things that are 
unusual.
    Mr. Smith. For example, and I hate to get hung up on 
details here, but a container that its ultimate capacity 
exceeded the restriction but its obvious contents are far below 
the limits and yet the whole line is stopped, the passenger is 
asked how much exactly or letting them know that it is going to 
go in the trash or whatever the case is. I mean, to me that 
could be avoided. Am I missing something?
    Dr. Drury. No, I have had exactly the same thing where I 
was carrying a small amount of liquid in a larger container and 
they were following rules. You know, their first line of 
defense is to follow the rules, and if you look at the 
consequences for not following them, you can see why people 
might wish to follow them because they could be checked up on 
easily and somebody could say--you or I could be a person going 
through testing them and saying do they follow the rules. So in 
this case, they wouldn't. Does it make sense on every occasion? 
I don't think so, but the question is which error do you want 
to make? And I think the error of potential inconvenience of 
passengers as I was and presumably you were is probably less 
than letting something through that could be construed as a 
threat.
    Mr. Smith. Thank you. Mr. Tsao, if you wouldn't mind 
elaborating perhaps on how the rules are made? And also, would 
someone with more seniority or more authority be able to just 
automatically pass over something such as that? Maybe if you 
could speak to uniformity as well?
    Mr. Tsao. Certainly. I think one of the real difficulties 
for our screening workforce is again the number of people we 
see in any given day, two million passengers a day going 
through various different types--coming with very different 
travel patterns, you know, whatever they are coming through. It 
is difficult for us to train for every single opportunity or 
exception that may occur. And so giving the screeners leeway 
which we are leaning towards is very difficult to train. We are 
moving toward a system where instead of being a rules-based 
system, you focus more on your interaction with the passenger. 
But again, that is very complicated for us to initiate and we 
are just starting that. But it really comes down to volume. You 
may have two ounces of water in a 16-ounce bottle, we will let 
you through, but does that mean the next 400 people in line do 
the same thing? So it becomes a process where you have got to 
draw the line somewhere. And then unfortunately the next time 
you will know, don't come with a 16-ounce bottle with only two 
ounces of liquid in it. That is the only way we can keep the 
lines moving. It is the only way we can have a consistency of 
product.
    Mr. Smith. And so you would argue then that they actually 
end up doing it faster? And I will accept that. That does 
make----
    Mr. Tsao. In the long run, yes, sir.
    Mr. Smith.--sense.
    Mr. Tsao. Again, if you have too many exceptions, you know, 
every time you have got to call over a supervisor to answer 
certain things, is it worthwhile for the traveling public? Is 
it worthwhile on a security basis to again start making 
exceptions to every possible scenario that can go through?
    Mr. Smith. Is it conceivable that the smaller the number of 
passengers through a checkpoint on a given day, the stricter 
the scenarios seem to be?
    Mr. Tsao. Again, sir, the screeners and the screening 
supervisors are instructed to follow a set of standard 
operating procedures.
    Mr. Smith. Okay. Thank you, Mr. Chairman.
    Chairman Wu. I thank the gentleman from Nebraska and 
recognize the gentlelady from California.
    Ms. Richardson. Thank you, Mr. Chairman. To my colleague 
there from Nebraska, being a graduate of both UCLA and USC, I 
would say they neither have the coast, football or a basketball 
team. They need a little help coming from the west side. We are 
going to get a gingerly game going here.
    I have three questions, and if you could be as brief as 
possible because they are going to call votes in a moment. Dr. 
Hallowell, in your written testimony, you note that funding for 
aviation security R&D for explosives detection has not 
increased in real dollars since 1996. What budget would you 
have requested, why, and how would you use it?
    Dr. Hallowell. Yes, ma'am. I think I would have been 
inclined to ask for budgets that were very similar to what we 
received in 2004, 2005 timeframe in that there are still 
daunting R&D issues that we really haven't attacked properly. 
And here I am thinking screening of cargo which certainly is 
looming on the horizon and a few other technological 
breakthroughs that we need to pursue to have some technology 
enablers to look at other things such as checkpoints that are 
more user friendly and more integrated and faster as well.
    Ms. Richardson. Would you supply this Committee in the 
future that information?
    Dr. Hallowell. Yes, ma'am, I will take that for the record.
    Ms. Richardson. Okay. Thank you. My second question is what 
is the status of the frequent traveler program? I heard a 
little bit about it six months to a year ago where if people 
who fly on a regular basis, they would get a certain kind of ID 
card and it was being used, piloted at a few of the locations. 
What is the status of implementing that program?
    Mr. Tsao. Yes, ma'am. I believe you are referring to the 
registered traveler program?
    Ms. Richardson. Yes.
    Mr. Tsao. That program is basically a private-sector 
program. It is run by a coalition of private-sector interests 
which we interact with. I am not the expert on that program. I 
can tell you it is out of the pilot stage and it is being 
broadly used at some of the airports. We have been asked to 
evaluate some of the technology that they have used, but I am 
really not qualified to answer any of the programmatic 
questions.
    Ms. Richardson. Okay. Could you supply this Committee with 
the information----
    Mr. Tsao. Yes, ma'am.
    Ms. Richardson.--of who is doing the program how the 
results are?
    Mr. Tsao. Yes, ma'am.
    Ms. Richardson. And then my third and final question which 
I think is to you, Mr. Tsao, how many TSA employees would you 
say, a percentage, are non-U.S. born and how do you recruit?
    Mr. Tsao. I am afraid I am going to have to get back to you 
on both of those questions, ma'am. I don't know specifically 
any of the statistics.
    Ms. Richardson. I realize that the Oklahoma City bombing 
that occurred was a domestic issue. One of the things I 
oftentimes get in the airport of people who notice how many 
people are not U.S.-born who are working as TSA employees. And 
so I am just curious what the percentage is and what you do to 
recruit for everyone. So I look forward to that information as 
well.
    Thank you, Mr. Chairman, I hit my deadline in enough time 
for the gentleman from Nebraska to tease me again.
    Chairman Wu. We will do a quick round. Those bells, horns, 
whistles, et cetera, you hear in the background are calling us 
to votes, and it will be a lengthy series of votes. So it is my 
intention to permit all Members who wish to do so to ask one 
further round of questions and then to adjourn the hearing.
    And I have only one question, and this is for the entire 
panel and this is about research priorities. You know, my 
understanding is that the TSL priorities are set by DHS S&T 
Directorate which is supposed to look to its customer 
components, specifically TSA. How do you integrate research 
priorities from other sources such as the Homeland Security 
Science and Technology Advisory Committee and industry 
stakeholders, and also, since IPTs focus on short-term 
technology development priorities, how do you determine 
priorities for long-term and more basic research? And I look 
forward to commentary from folks outside of TSL and TSA also.
    Dr. Hallowell. Yes, sir. I think right now the research 
priorities are being driven by the capstone integrated product 
teams Under Secretary Cohen has set up. He has a number of 
capstone integrated product teams, certainly the one, 
government explosives detection, is chaired by Administrator 
Polly and also has other sitting Members as well. The purpose 
of that capstone team is to identify gaps that need to be 
addressed in terms of what the customer needs. It is the role 
and responsibility of the Science and Technology Directorate to 
turn those gaps into an idea of what kind of research, enabling 
research, needs to be conducted to start identifying the R&D 
needs. So prioritization is made within S&T. The capstone 
process has just really initiated this year, and I believe it 
has been fairly successful. The point is the integrated product 
team is not just a two-year initiative. This was actually 
driving R&D that goes out far into the future. Adam, would you 
like to comment as well?
    Mr. Tsao. Yes, sir. I think the community is really 
starting to come together, and quiet honestly, it has been 
sparked by Admiral Cohen's institution of IPT's. Last year was 
the very first year for that, and I think we have learned a lot 
about who we are and who has expertise within DHS and outside 
of DHS. And that community is coming together through this 
process.
    Chairman Wu. Doctors Oxley or Drury, would either of you 
care to comment on the setting of priorities and the balance 
between short-term and long-term research?
    Dr. Oxley. I certainly hope that that is something that we 
will accomplish in setting up our new center which has been 
announced but not officially awarded yet. It is something we 
are having constant discussion on and reaching out to the 
entire community of folks, not just the university people so 
that we are in touch with that.
    I think to counteract terrorist bombings and IED's, it is 
going to take a multi-prong approach. It is not simply 
protection, it is pre-bomb making and it is post-bomb making. 
So it is hardening. And all of those issues are addressed at 
various places, and we hope to pull them together.
    Dr. Drury. Purely from a human factors engineering point of 
view, there has been considerable work done but focused largely 
on the screening process. There are a lot of other areas where 
this work needs doing on a more developmental, short-term 
basis. I think there is a lot more work that needs doing on a 
long-term basis of how people make decisions under stress 
effectively and how you can support them in doing that.
    Chairman Wu. Thank you very much. The gentleman from 
Nebraska?
    Mr. Smith. Thank you, Mr. Chairman. Mr. Tsao, if you 
wouldn't mind, how does TSA determine aviation security 
strategy and equipment requirements? Do you consult with the 
technical expertise at TSL in order to do so? And furthermore, 
how does science and technology adjust its R&D efforts to 
reflect the equipment requirements from TSA?
    Mr. Tsao. Thank you, sir. We absolutely discuss--we have a 
very open dialogue with TSL. Again, we set the requirements. We 
know what the threat streams are, we know what the 
vulnerabilities are, we know what our screeners need. We are 
understanding our passengers I think better than we have in the 
past. So it is incumbent upon us to set the tone on where 
research and development, both short-term and long-term, need 
to go.
    As far as how we determine the technologies, often 
something will come through the door. It looks promising. TSL, 
will you look at it? Does it do what it say it is going to do? 
They will test it. Yes, it does what it says it is going to do. 
Okay. We will look at it. If it can do what it says it can do, 
how can we use it? All right. Now, this is how we are going to 
use it. Will using it in this manner meet our operational 
needs? They will go back and a look and say yes, in this manner 
it will detect with a certain probability of detection, a 
certain false alarm. We will go back and then we may--ased on 
that laboratory results we may start a pilot and it may turn 
out that in the airport environment, you know, this brand-new 
widget cannot handle the volume of people we need to put 
through it. Or in some cases there are a lot of very promising 
technologies where the timetables are just too long. I mean, we 
really need to average any process we have. It can't really go 
beyond 15 or 20 seconds, otherwise you start significantly, you 
know, jamming up our checkpoints which causes additional 
security problems.
    So there are things that may be useful but they need to get 
themselves engineered to the point where they meet our 
operations. If all that occurs and we find something that meets 
our detection needs, meets our operational needs, we know it is 
not going to break down. We know that the screeners are going 
to be able to use it. We deploy that stuff fairly quickly. I 
think one example you might see, in the work we had done with 
the lab, is the procurement of the FIDO Paxpoint. This was a 
piece of equipment that was really in a rack looking for bombs. 
We were able to modify it to look for the emerging homemade 
explosive threat. We did that, made a procurement, had it on 
the street in less than six months. So I mean, we are really 
trying to be more, I should say, adaptive as the threats come 
in.
    Mr. Smith. Okay. Thank you. Dr. Hallowell, in your 
testimony you state that the independent tests and evaluation 
group and research and development group ``set their priorities 
using different methodologies''. How do you see these 
methodologies varying and how would their priorities compare 
with those laid out by TSA?
    Dr. Hallowell. Well, there are two different teams of my 
people in my laboratory. The independent test and evaluation 
team really does the kinds of tests and evaluations that 
directly support activities planned by TSA for piloting or 
deployment. So that particular team works very, very closely 
with Mr. Tsao and his group to determining their priorities. 
And this happens every day. Priorities will change based upon 
what their interests are and what the threat level is in Intel 
and things like that. So far we have been actually able to test 
almost everything I believe he asked us to do and get it done 
on a fairly timely basis.
    The other team, the R&D team, actually is doing different 
things for a living. They are looking at technology at various 
technology readiness levels. So it could be like a breadboard 
or a prototype, and those things typically come out of R&D 
land, although we do have a pretty active program where we work 
directly with industry under cooperative research and 
development agreements to help mature technology.
    So if you work for a company, you think you have a solution 
that can find a bomb, what I say to you is please bring it to 
my laboratory and let us shake it down. And the way we shake it 
down is of course we have every flavor explosive and we can 
evaluate it understanding well what our customer needs are so 
we can advise companies as to how to grow their technology to 
get closer to the requirements of the customer.
    So that is more of an R&D kind of look-see, how are you 
doing, what can you do, what can you not do, and what are the 
opportunities for improvement.
    Mr. Smith. Thank you, Mr. Chairman.
    Chairman Wu. I thank the gentleman. The gentlelady from 
California?
    Ms. Richardson. Yes, Mr. Tsao, in your testimony you said 
that talking about the standard and your turning around 
products, in your testimony you say that TSA develops and 
identifies the requirements that must be met for procurement to 
proceed. We have heard from aviation security industry 
stakeholders, however, that testing new technologies sometimes 
suffers because new and emerging technologies are tested 
against old standards of performance. What is TSA doing to 
update those standards in light of new technologies, and what 
support does TSL provide to this process? And finally, how do 
you engage in the private sector when setting performance 
standards for these newer technologies?
    Mr. Tsao. Yes, ma'am. I guess it all goes to what our 
current capabilities are and what the needs are. If we are 
talking about a new technology competing with the old 
technology, that new technology has to do at least what that 
old technology does. So there is very little we can do about or 
we would be interested in doing in degredating those standards.
    However, if there are situations again where our 
capabilities are not where they are supposed to be and we see a 
new technology, we are very flexible in the sense that it gives 
us a chance. If you have something that gives us a chance, you 
know, I am not going to hold it to a standard that is not 
reachable in the short-term. That just doesn't make any sense 
from a risk standpoint.
    Now, we would expect that over time you would be able to 
get to, you know, develop and again provide more capabilities, 
but we are in a very adaptive world and I need to be as 
adaptive as possible.
    Dr. Hallowell. Yes, ma'am. I would just like to add to that 
that often TSA does come to us, and they are interested in the 
technology and they ask us what is the art of the possible? 
Right now we are involved in doing a market survey and also 
just evaluating technology for a product line that the CTO is 
very interested in. So we do an evaluation of what is available 
and advise them so they have a heads up. It is a little bit 
more than just detection, but we do look at emerging technology 
to help TSA.
    Chairman Wu. I thank the gentlelady, and before we bring 
the hearing to a close, I want to thank all of our witnesses 
for testifying before the Committee today. The record will 
remain open for additional statements from Members and for 
answers to any follow-up questions that Members of the 
Committee staff may ask of the witnesses. I thank you all for 
making the journey for your presence today, and despite 
whatever our discussions have been through this process, I 
actually feel better about going to the airport the next time I 
will be going. Thank you very much for being here today. The 
hearing is adjourned.
    [Whereupon, at 2:10 p.m., the Subcommittee was adjourned.]


                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Susan Hallowell, Director, Transportation Security 
        Laboratory, Science and Technology Directorate, Department of 
        Homeland Security

Questions submitted by Chairman David Wu

Q1.  In your written testimony, you said that funding for aviation 
security R&D for explosives detection has not increased in real dollars 
since 1996.

     How has the lack of investment affected aviation security 
generally?

A1. Aviation security is continually improving with the introduction of 
new homeland security technologies. For example, in April, the 
Department announced checkpoint technology improvements that will 
further strengthen aviation security while decreasing the hassle factor 
for travelers. The S&T Directorate's work in transportation security 
R&D will lead to the next generation of passenger screening. This 
includes stand-off detection of explosives, detecting suicide bombers, 
improving the capabilities of canine explosives detection teams and 
creating the next-generation passenger checkpoint. Investment in this 
and other aviation security R&D is based on priorities identified by 
the Transportation Security Administration (TSA) and the 
Administration, as supported by Congress.
    Performers carrying out aviation security R&D include the S&T 
Directorate's Transportation Security Laboratory (TSL) as well as 
universities, national laboratories and industry.

Q2.  What projects have been delayed or canceled because of a lack of 
funding?

A2. The S&T Directorate's investment in R&D related to aviation 
security includes a broad range of activities across the S&T 
Directorate. Several projects address priorities identified by TSA 
through the S&T Directorate's capstone Integrated Product Team (IPT) 
process. Those priorities include:

        -  Technologies to screen people for explosives and weapons at 
        fixed aviation and mass transit checkpoints--In particular, to 
        allow higher detection rates with minimal disruption to 
        passenger flow;

        -  System solutions for explosives detection in checked and 
        carried bags--In particular, automated systems to screen for 
        conventional explosives, liquids, weapons, and homemade 
        explosives;

        -  Capability to detect homemade or novel explosives--In 
        particular, characterizing potential homemade explosives for 
        use in developing detection systems for screening at 
        checkpoints;

        -  Optimized canine explosive detection capability--In 
        particular, techniques, training tools, and methods to improve 
        performance for all transportation venues; and

        -  Technologies for screening air cargo for explosives and 
        explosive devices--In particular, technologies for screening 
        break-bulk, palletized, and containerized air cargo.

    Lower priority project areas that are not funded or have reduced 
funding include: (a) development of containerized and palletized cargo 
inspection technologies, (b) shoe scanner technology development, (c) 
advanced explosives detection systems for checkpoints and checked 
baggage, (d) enhancing trace ``puffer'' portals, and (e) developing 
integrated checkpoint systems.

Q3.  How will the continually decreasing investments affect aviation 
security as a whole over the next five to ten years?

A3. The investment in aviation security technology is not ``continually 
decreasing.'' There are numerous projects across the S&T Directorate 
that will help ensure the safety of passengers throughout the 
transportation sector. The S&T Directorate's investment in aviation 
security R&D spans basic research to technology transition to customers 
in a number of areas, including hostile intent, transportation security 
and countering improvised explosives devices. Investment which 
explicitly applies to detecting and mitigating explosives on aircraft 
was $23.5 million in FY 2007 and $25.3 million in FY 2008. The 
President's FY 2009 budget request of $42.3 million nearly doubles that 
amount. The S&T Directorate plans to continue significant investment in 
aviation security R&D in the out years.

Q4.  You noted that TSA is responsible for setting performance 
requirements for technology.

     Has TSA done an acceptable job at sharing their performance 
requirements for new technology in a timely and useful manner?

A4. The process for receiving requirements from the Transportation 
Security Administration (TSA) has improved with the implementation of 
the S&T Directorate's Integrated Product Team (IPT) process. Through 
this process the S&T Directorate receives requirements from TSA and 
designs programs that will develop products to meet these requirements. 
In addition, there is frequent and open discussion between the S&T 
Directorate and TSA on the development of certification and 
qualification requirements for specific products.

Q5.  What improvements are necessary in the communication between TSA 
and TSL?

A5. The S&T Directorate's capstone IPT process brings leadership and 
staff from TSA and TSL together to discuss research and development 
priorities and plans. While the IPT process has improved communication, 
security requirements for the Transportation Security Administration 
(TSA) can change rapidly given the adaptation of terrorist techniques. 
This makes having numerous and open lines of communication vital. 
Examples of ongoing efforts to improve communication with TSA include:

        <bullet>  The S&T Directorate has detailed several of its 
        Transportation Security Laboratory (TSL) staff to TSA. A test 
        engineer was detailed to TSA's Network Management group to 
        support cargo projects and a Human Factors subject matter 
        expert is about to begin a detail to TSA headquarters. This 
        should facilitate open and frequent dialogue about TSA 
        requirements with TSL R&D personnel knowledgeable in the 
        science of detection and deterrence.

        <bullet>  The S&T Directorate and TSA are looking for ways to 
        exchange expertise to provide input on available technology 
        opportunities. The S&T Directorate's R&D scientists at TSL 
        recently investigated millimeter wave technology, and are 
        providing an overview of the technology's capabilities to TSA.

        <bullet>  The S&T Directorate plans to schedule more frequent 
        program and technical reviews between TSA and TSL, which should 
        contribute to collateral pursuit of optimal security solutions.

Q6.  You describe the Transportation Security Laboratory as ``committed 
to providing technical and procedural solutions that work in the 
field.'' Yet TSL does not carry out field testing of technology.

     How does TSL gather information on technology successes and 
failures after those technologies are deployed?

A6. The Independent Test and Evaluation (IT&E) group at the 
Transportation Security Laboratory (TSL) receives information on post-
deployment performance through regular briefings from teams conducting 
field performance verification testing for the Transportation Security 
Administration (TSA), as well as during S&T Directorate Integrated 
Product Team (IPT) project-level IPT meetings, where deployment issues 
are routinely discussed.

Q7.  What steps does TSL take to improve technologies after problems 
are identified, and how do you test whether those problems are indeed 
solved?

A7. When issues arise in the field, TSA notifies the lab and TSL works 
with the vendors to address problems. This often includes review of the 
vendor's Engineering Change Proposal (ECP) to, in part; determine if 
additional testing is required to validate the solution. In addition, 
TSL maintains an operational version of a given product, and pursues 
diagnoses of field issues by trying to replicate problems on these 
maximally performing systems. When new threats are identified, as with 
the homemade explosives threat, TSL works closely with TSA to identify 
capability gaps and pursue solutions with industry and international 
partners.

Q8.  In your testimony, you argue that the Transportation Security 
Laboratory should be allowed to charge companies for certification of 
their products.

     If TSL was authorized to charge for certification services, how 
much additional lab capacity and how many additional employees would 
need to be created in order to offer this service, especially given 
TSL's increasing workload from TSA?

A8. If the Transportation Security Laboratory (TSL) was authorized to 
charge for certification services, TSL would need to increase 
laboratory capacity and employees over the next several years as 
follows:

        a)  Administration of Customer Charging. TSL estimates this 
        would require additional personnel to perform financial 
        management, financial analysis, customer coordination and 
        scheduling services.

        b)  Infrastructure Investment. In order to accommodate the 
        increasing need for services, TSL would need to add (i) an 
        Explosive Storage Facility, (ii) an Independent Test and 
        Evaluation (IT&E) Facility, (iii) a Test Article Storage (non-
        explosive) Facility and, (iv)Expanded Office Space.

        c)  Personnel. TSL would need to add eight additional personnel 
        to meet the added workload, including four general/system 
        engineers, one mathematician, one explosives specialist and two 
        explosives handlers.

        d)  Operations and Maintenance. TSL would require additional 
        Operations and Maintenance investment to support the new 
        facilities and added workload.

    These investments would enable TSL to fulfill the inherently 
governmental function of maturing and certifying technology and expand 
testing and development to additional customers.

Q9.  How would TSL determine which products to accept for 
certification, and how would you set performance requirements?

A9. The S&T Directorate's Transportation Security Laboratory (TSL) 
performs certification at the request of the Transportation Security 
Administration (TSA), using performance requirements set by TSA. As DHS 
develops standards for other DHS applications (beyond transportation 
security), the S&T Directorate plans to certify equipment for other 
applications. Vendor products that have achieved a sufficient degree of 
technical readiness would be accepted on a first-come, first-served 
basis, provided TSL has sufficient capacity to take on work beyond its 
DHS directed workload.

Q10.  Would all companies be charged for testing services, or only 
those that approached TSL without a request from TSA?

A10. TSL does not plan to charge companies that are responding to a 
request from TSA. TSL would charge companies that approached TSL 
without a request from TSA. These may include, for example, 
international technology developers.

Questions submitted by Representative Phil Gingrey

Q1.  Frequent travelers are continuing to enroll into the Clear 
Traveler Program that allows them to navigate security lines at 
airports more expeditiously. While Clear is one example of how a 
private company can work to both keep us safe and move us through the 
security screening process in a speedy manner, to what extent does the 
Federal Government partner with companies such as this to stay on the 
cutting edge of security screening and airport safety?

     Furthermore, since this is the general direction that we are 
moving for aviation security, what potential challenges will we face in 
terms of public/private partnerships in this realm, the storage of 
biometric information, and the continued advancement in aviation 
security technologies?

A1. In support of a formal, systematic approach for coordinating with 
stakeholders and facilitating an effective and efficient exchange of 
information regarding Transportation Security Administration (TSA) 
requirements and future deployments of screening technology, the 
Industry Outreach group within the TSA Office of Security Technology 
(OST) was created to formalize the communication mechanisms by which 
OST, customers, and security partners exchange ideas, information, and 
operational expertise. Collaboration on the technology security 
requirements and deployment strategies leads to the successful 
deployment of cutting-edge, state-of-the-art technology solutions.
    In order to ensure that the TSA is increasing its efforts to 
strengthen the relationship with security partners, Industry Outreach 
regularly participates on industry and association-sponsored panels to 
discuss technologies available for passenger, baggage, and cargo 
screening. Currently, Industry Outreach is in the process of organizing 
industry roundtables where security partners will be afforded a better 
understanding of TSA's vision for future technologies. Industry 
representatives will also be asked to provide the OST with feedback 
regarding their concerns. OST understands the importance of receiving 
industry feedback and to that end the ``Planning Guidelines and Design 
Standards for Checked Baggage Inspection Systems,'' distributed in 
October 2007, now has an e-mail address where our industry security 
partners can submit comments for consideration in the next version of 
the guidelines. The OST Industry Outreach also participates with the 
Office of Commercial Airports in TSA's Office of Transportation Sector 
Network Management on a regular basis. Individual airports are 
encouraged to contact OST Industry Outreach with any airport specific 
concerns they may have. In addition, Industry Outreach also regularly 
conducts site visits and attends conferences. Industry Outreach is also 
supporting a new planning process for airports to apply for fiscal year 
(FY) 2009 and FY 2010 funding for electronic baggage screening systems.
    As mentioned above, on September 11, 2007, TSA issued the 
``Biometrics for Access Control Qualified Products List.'' This 
document is an excellent example of how TSA is working with industry to 
stay on the cutting edge of biometric technology. This qualified 
products list (QPL) is intended to identify biometrics devices for 
access control systems which have been tested and found to be in 
compliance with performance specifications as set forth in the Guidance 
Package Biometrics for Access Control published on September 30, 2005. 
The testing/qualifying process is a continuous, open, and ongoing 
activity and is not intended to endorse one product over a competitor's 
product, and the TSA does not recommend one over another. The QPL is 
established merely to provide information to airport operators on 
products that have been tested and meet TSA standards, for their use in 
conducting source selections and procurement actions, if needed. Users 
are cautioned to only rely on the presence of a product on this list as 
one important but not comprehensive piece of information in an overall 
airport biometric acquisition and deployment decision.
    OST is currently working with the National Institute of Standards 
and Technology (NIST) to establish a process to qualify biometric 
testing facilities to further update this QPL (Transition Phase), while 
also working with NIST and other organizations within the Department of 
Homeland Security, to develop an agency-wide biometrics testing lab 
accreditation process. Once that process is established, testing labs 
must obtain NIST Accreditation (NVLAP) in order to test devices for 
inclusion on the QPL. Manufacturers may submit their devices to a NVLAP 
accredited lab of their choice and the lab will submit test results to 
TSA for analysis and inclusion on the QPL.
    All manufacturers/vendors of biometrics for access control systems 
may participate in planned future testing and the QPL will be 
periodically updated to include new information about existing products 
and additional products that qualify. Government and industry working 
together will ensure that the biometric systems are effective, 
reliable, and secure.
    The potential challenges in the storage of biometric information 
include privacy protection, records retention, and the systems required 
to house the data. However, only minimal data is stored on the 
Registered Traveler (RT) card. The card contains only enough biometric 
data, stored within an applet on the card, to confirm a person's 
identity when he or she travels. As a safeguard against biometric 
theft, fingerprints are not stored on the RT card as an image, but as 
biometric template data which prevents unauthorized parties from 
replicating the fingerprint image.
    TSA will continue to look toward partnership opportunities to 
assist in expediting the security process.

Q2.  How should TSA determine the appropriate mix of technology and 
people in its aviation security and other modes of transportation?

A2. The Transportation Security Administration (TSA) constantly 
advances its technology usage to stay ahead of emerging threats. We 
know there's no single silver bullet technology, no game-changing 
technology that will, at once, take us back to pre-9/11 convenience. 
But by upgrading what we do have--our workforce and technology 
resources--and combining this with the other layers of security and 
process innovation, we can get the security result we need, with a lot 
less hassle for passengers.
    TSA's layered approach to security seeks to identify and deter 
threats well before they reach the Nation's airports, railways, 
highways, mass transit, ports and pipelines. This risk-based security 
strategy relies on transportation-specific intelligence, so TSA 
coordinates closely and shares information with other Department of 
Homeland Security (DHS) components, the intelligence and law 
enforcement communities, other government departments and agencies such 
as the Department of Transportation and the Federal Aviation 
Administration, and the transportation industry. Transportation-
specific intelligence is critical to TSA's overall risk-based security 
strategy, and the products of such intelligence provide a threat 
framework to prioritize limited security resources.
    TSA reviewed all modes of transportation and set risk-based 
priorities. These priorities focus TSA's attention and limited 
resources--both people and technology--on the most critical issues. TSA 
has conducted or participated in various risk analyses that compare 
risks across different transportation modes, including the DHS 
Strategic Homeland Infrastructure Risk Assessment. Surface 
transportation, transit, and rail are, like aviation, high priorities 
for TSA. The level of funding is determined by the degree to which TSA 
can effectively mitigate the risks, compared to the degree with which 
industry and other stakeholders can mitigate the risks.
    TSA takes a network approach to transportation security and views 
it as a shared responsibility and effort among all of TSA; the 
Department of Homeland Security (DHS); other government agencies and 
entities at all levels, including federal, State, local, tribal and 
territorial; and owner-operators.
    Much of the Nation's aviation infrastructure is federally owned. 
Surface modes of transportation are approximately 95 percent privately 
owned and operated. They receive security funding support from multiple 
streams (i.e., State, local, private, as well as federal). The 
Department has consistently stated that responsibility for surface 
transportation security is a shared responsibility among a variety of 
stakeholders, including State, local, and federal agencies, and private 
owners and operators. The appropriate role for the Federal Government 
includes: using the substantial resources already in place and 
providing critical information; setting national priorities; developing 
transportation security fundamentals; coordinating ongoing efforts; and 
encouraging certain actions that reduce risk to the Nation's 
transportation system.
    The bulk of federal spending in aviation security has covered the 
compensation and benefits of Transportation Security Officers, who work 
every day in more than 450 airports nationwide to ensure the skies 
remain secure. Aviation security allows for point defense. We can seal 
off an area of the airport and only permit entry to those with tickets 
who have passed through screening.
    The rail and mass transit modes do not accommodate this type of 
approach. These systems operate over a broad geographic spread with 
numerous stations and transfer points providing the efficiency and 
fast-pace that are essential to moving thousands of passengers, 
particularly during daily rush hours. The point defense approach taken 
at the airports is neither practicable nor desirable. Rather, an 
integrated strategy, tapping the strengths of the Federal Government, 
State and local governments, and passenger rail and mass transit 
agencies, must be pursued.
    In evaluating the resources required to address surface 
transportation risk issues, it is important to account not just for 
TSA's budget and statutory obligations in aviation, but also the 
substantial efforts, capabilities and expertise that already exist in 
the surface transportation environment, as well as very different 
operating, legal, and resource requirements. Therefore, the level of 
TSA's budget allocated to surface transportation security relative to 
aviation only partially reflects the overall relative risk between 
them. In fact, TSA does give attention and priority to surface 
transportation, but TSA's role relative to the security partners in the 
networked approach is different than it is in aviation.
    The appropriate way, therefore, to determine the appropriate mix of 
technology and people in aviation security and other modes of 
transportation, is to use the same criteria that we use to evaluate all 
proposed security measures. These criteria are based on risk management 
(how substantial is the risk that the measures addresses and how much 
does it mitigate the risk), layers of security (how does the measure 
complement and enhance other existing security measures) and the needs 
and constraints posed by any given mode of transportation where the 
measure might be applied.

Q3.  Please respond to the three questions below:

     What is the technical background of employees working at TSL?

A3. The S&T Directorate's Transportation Security Laboratory (TSL) 
federal staff is composed of scientists (physicists, chemists, research 
psychologists and mathematicians) and engineers (aerospace, mechanical, 
chemical and electrical), certified project managers, explosive handler 
specialists, safety and security specialists and administrative 
personnel.

Q4.  How many of your employees have science or engineering degrees?

A4. Twenty three percent of TSL staff members have obtained doctorate 
degrees, mostly in science and some in engineering, 38 percent of the 
staff hold Master's degrees in science or engineering and 11 percent of 
the staff holds Bachelor's degrees, predominately in science and 
engineering. The rest of the staff has Associate's degrees in a variety 
of areas. About 70 percent of the staff performs technical roles, while 
the remainder perform program management, administrative or safety and 
security functions. Of the technical staff, about half support research 
and development (R&D) activities and half support test and evaluation 
activities for the Integration, Test and Evaluation (IT&E) and R&D 
groups.
    The TSL federal staff is supplemented by an equivalent number of 
contractors as well. Their technical background and distribution of 
labor functions are similar to the distribution of the federal staff.

Q5.  Can TSL recruit qualified scientists to perform testing and 
evaluation without also providing for opportunities to perform basic 
and applied research?

A5. The S&T Directorate successfully recruits highly qualified test 
engineers as well as scientists to work at the Transportation Security 
Laboratory (TSL). Highly qualified professionals are attracted by the 
range of work conducted at TSL, which involves basic and applied 
research in the development of new standards and technologies. Many of 
these professionals are also attracted by TSL's rich history of 
successful product development and technology life cycle management as 
well as the international recognition TSL has received for its role in 
the development of standards, protocols and test articles necessary for 
detection technology assessments. However, due to the length of time it 
takes to hire, we do loose recruits to other jobs.

Q6.  Your testimony describes how TSL uses core funding to respond to 
unforeseen requests for scientific and technical advice.

     How much of your budget has gone to these activities over the last 
five years?

A6. It is estimated that about 25 percent of the Transportation 
Security Laboratory's (TSL's) budget has been used to meet unforeseen, 
rapid response requests from TSA and other customers. These requests 
have included rapid turnaround analyses of developing or deployed 
technologies, requests for advice on technology suitability, and 
requests for analysis in support of TSA's project-level Integrated 
Product Teams (for cargo, checked bag and checkpoint technologies).

Q7.  Do you believe TSL is prepared to quickly respond to similar 
requests in the future?

A7. Yes.

Questions submitted by Representative Laura Richardson

Q1.  In your written testimony you note that funding for aviation 
security R&D for explosives detection has not increased in real dollars 
since 1996.

     What budget have you requested and how would you use it?

A1. Aviation security is continually improving with the introduction of 
new homeland security technologies. For example, in April, the 
Department announced checkpoint technology improvements that will 
further strengthen aviation security while decreasing the hassle factor 
for travelers. The S&T Directorate's work in transportation security 
R&D will lead to the next generation of passenger screening. This 
includes stand-off detection of explosives, detecting suicide bombers, 
improving the capabilities of canine explosives detection teams and 
creating the next-generation passenger checkpoint. Investment in this 
and other aviation security R&D is based on priorities identified by 
the Transportation Security Administration (TSA) and the 
Administration, as supported by Congress.
    Performers carrying out aviation security R&D include the S&T 
Directorate's Transportation Security Laboratory (TSL) as well as 
universities, national laboratories and industry.
    The S&T Directorate's FY 2009 budget request for Laboratory 
Facilities funding in support of the Transportation Security Laboratory 
(TSL) is $21.55 million. This would fund TSL operations, maintenance, 
employee salaries and expenses. In addition, the S&T Directorate's 
budget request includes program funding that would fund activities at 
TSL. A significant portion of this investment would come from the S&T 
Directorate Explosives Division's FY 2009 budget request of $96.15 
million to fund the following programs. TSL will be one of the 
performers carrying out this work.

        -  Homemade Explosives (HMEs) Program--Investigates all 
        potential detection technologies capable of detecting and 
        distinguishing explosives and flammable liquids from benign 
        liquids (e.g., drinks, hygiene products and contact lens 
        solutions).

        -  Cargo Program--Develops advanced air-cargo screening systems 
        and improves canine detection capabilities.

        -  Check Point Program--Develops advanced capabilities to 
        detect explosives and concealed weapons, including small 
        Improvised Explosives Devices (IEDs) or HMEs, which terrorists 
        could use in the hostile takeover of mass transit.

        -  Manhattan II Program--Initiates cost performance tradeoff 
        studies to provide TSA better information upon which to acquire 
        the ``best performance and affordability'' screening systems.

        -  Conveyance Protection Program--Assesses risks and mitigates 
        consequences of intentional assault on air, surface and marine 
        vehicles.

        -  Explosives Research Program--Improves explosives detection 
        capabilities by performing multi-disciplinary research and 
        development in imaging, particle physics, chemistry, and 
        algorithms. These result in the development of enhanced 
        detection capabilities and lead to next-generation detection 
        systems.

        -  Deter Program--Conducts social and behavioral sciences 
        research to identify actionable indicators and warnings of IED 
        threats posed by individuals and groups in the United States.

        -  Predict Program--Develops technologies to secure U.S. 
        borders that will automatically identify, alert on, and track 
        suspicious behaviors that precede a suicide bombing attack; and 
        automatically identify and prioritize the risk of likely 
        potential targets of attack.

        -  Detect Program--Develops advanced technologies to detect 
        explosive threats to the Nation's aviation, rail and ship 
        transportation systems.

        -  Respond/Defeat Program--Conducts R&D to better respond to 
        and defeat explosive threats.

        -  Mitigation Program--Reduces the effects of bombs that cannot 
        be detected or cannot be rendered safe through practical and 
        available means.

                   Answers to Post-Hearing Questions
Responses by Adam Tsao, Chief of Staff, Office of Operational Process 
        and Technology, Transportation Security Administration, 
        Department of Homeland Security

Questions submitted by Chairman David Wu

Q1.  How does TSA define field testing protocols? In what ways do field 
tests differ from lab tests and certification procedures, and how are 
the results reported to TSL?

A1. Independent operational (or ``field'') testing and evaluation 
(OT&E) is the means by which the Transportation Security 
Administration's (TSA) Office of Security Technology (OST) 
characterizes the operational effectiveness and suitability of viable 
security technologies and systems in the field environment. Operational 
testing uses typically-trained operators and maintainers, operating 
production-representative systems, in accordance with the approved 
concept of operations within the intended operational environment.
    Operational testing primarily differs from laboratory or 
certification technical testing in the degree of operational realism 
afforded by testing within the intended environment. In addition, OT&E 
supports increased focus on suitability evaluation areas (including 
operational reliability and maintainability, logistics supportability, 
manpower and personnel requirements, training, and human factors 
engineering) through use by the intended target audience and with the 
intended support concept. As such, OT&E results present the most 
realistic portrayal of anticipated system performance within the field 
environment.
    The Department of Homeland Security Transportation Security 
Laboratory (TSL) provides TSA with results of their laboratory testing 
through classified briefings and formal reports. TSA operational field 
tests are conducted subsequent to laboratory testing. The results of 
field testing are for TSA use and it is not a requirement to provide 
operational test reports to TSL. Although results are not formally 
reported back to the TSL, the TSL does provide representatives to TSA 
project specific Integrated Product Teams. All program aspects, 
including operational test results, are discussed in this forum.

Q2.  According to Dr. Hallowell, the Transportation Security Laboratory 
has formal procedures in place to ensure that they are responding 
directly to TSA's research, development, testing, and evaluation needs. 
How successful has TSL been at meeting TSA's needs? Does the Integrated 
Product Team process capture adequate information about TSA's 
capability gaps and research priorities? Are there any changes to this 
process that you would recommend?

A2. The Integrated Product Team (IPT) process is in its initial stages, 
having just been included in Transportation Security Administration's 
(TSA) fiscal year (FY) 2009 budget. The IPT has been organized into 13 
capstones programs, to complement the research and development efforts 
of TSA. The Explosives Detection Division Capstone IPT was created 
during the current FY 2009 budget cycle.
    This initial pilot program was successful in many of its goals, 
including establishing budgetary funding priorities as part of the FY 
2009 budget process and in prioritizing the research and development 
needs of TSA. As of November 2007, the Explosives Detection Division 
Capstone IPT has shown that TSA is able to articulate to the Department 
of Homeland Security Office of Science and Technology a clear 
understanding of its science and technology needs to procure solutions 
that not only meet stringent detection thresholds, but also meet 
throughput requirements in support of the aviation sector.
    Currently, a more in-depth report card of the IPT Process is 
premature at this time, as the program is still too new. As already 
stated, the goal of the IPT Process is to address and reach a better 
understanding of the operational needs of TSA and to ensure the 
research and development efforts of TSA are timely and relevant. 
Initial feedback on the initial capstone program has been very 
promising.

Q3.  How often does TSA turn to the Department of Energy's National 
Labs or private labs to carry out testing that could be performed by 
the Transportation Security Laboratory? In those instances, why does 
TSA choose to use resources other than TSL, and what is the added cost 
to TSA?

A3. The Transportation Security Administration (TSA) actively pursues a 
number of options to readily interject new screening technology into 
the operating environment. TSA coordinates with the Department of 
Homeland Security's Science and Technology Directorate (S&T) to 
determine the most efficient way to achieve that goal. In general, TSA 
and DHS choose to use the National Labs when the opportunity is 
available to leverage existing expertise that has been developed for 
other government programs. It would be cost prohibitive for S&T to 
develop similar in house capability and expertise.

Q4.  In her testimony, Dr. Hallowell says that ``it is the 
responsibility of TSA to define and judge readiness for deployment.'' 
How does TSA determine whether a technology is ready for deployment? If 
technologies are deployed in spite of expressed reservations from TSL, 
what steps are taken to ensure that those technologies meet performance 
and technical requirements?

A4. The Transportation Security Administration (TSA) considers 
evaluation products from a variety of sources (including the Department 
of Homeland Security Transportation Security Laboratory (TSL) and other 
technical testing data sources, such as independently validated vendor 
information) in considering readiness for deployment of security 
systems and technologies. In addition to reviewing the demonstrated 
effectiveness and suitability of candidate systems (as evaluated 
against Operational Requirements Documents, procurement specifications, 
and other applicable statutory and regulatory requirements) as noted 
during both developmental and operational testing, the TSA Office of 
Security Technology also considers the operational capabilities 
afforded by the system of interest, as well as resource requirements, 
operational need, and threat information, among others, in determining 
how and whether a system should be deployed.

Q5.  How are human factors taken into account when developing 
functional requirements for new technologies? In what ways do 
requirements take both screener and passenger needs into account?

A5. Human Factors Engineers participate at every stage of the 
requirements development process and in system reviews. They ensure 
that requirements for human interfaces effectively address usability 
and ergonomic aspects. These requirements are written to ensure that 
screening equipment is user friendly so that operators can work 
efficiently and safely and passengers will be able to submit to 
screening in ways that are safe and minimize stress. The Transportation 
Security Administration (TSA) and the Department of Homeland Security's 
Science and Technology Directorate work together to provide human 
factors input into requirements development, system and critical design 
reviews, and system qualification. TSA then evaluates Human Systems 
Integration when systems are piloted in the field.

Q6.  Dr. Drury's written testimony describes the Threat Image 
Projection System (TIPS) as one example of how human factors research 
can positively affect the efficacy and speed of aviation checkpoints. 
TIPS enhances screener performance by randomly inserting threat images 
to ensure that screeners are regularly presented with potential threats 
and can react accordingly. Does TSA plan to include a system like TIPS 
in airports?

A6. Threat Image Projection (TIP) is currently active on over 1,800 TIP 
Ready X-ray (TRX) machines at all passenger screening locations 
nationwide. TIP provides screeners experience in identifying threat 
objects including improvised explosive devices, guns, knives, and other 
deadly and dangerous prohibited items (i.e., martial arts weapons, 
tools, and brass knuckles, among others). The TIP library contains over 
2,400 fictional threat images captured at various angles and difficulty 
levels. TIP serves as an invaluable, multi-functional system that 
extends well beyond an evaluation tool; it provides immediate feedback 
and functions as a reinforcement system that increases screener 
accuracy. TIP enhances screener attentiveness and vigilance through 
random and periodic presentations and exposure to new and emerging 
threats. TIP results, which have been collected and analyzed on a 
monthly basis since January 2004, have shown a steady increase in 
screener performance on threat detection. These results are used to 
track trends in screener performance on threat detection, as well as 
identify additional training needs.

Q7.  What is the technical background of employees working at TSA? How 
many of your employees have science or engineering degrees? How has TSA 
staffed its teams responsible for developing functional requirements 
for new technologies with respect to R&D expertise?

A7. Overall, the Transportation Security Administration (TSA) tracks 
the education level completed, such as Associate degrees, Master's 
degree, and so on. We do not capture the course of study; that is, 
Engineering vs. English, mathematics or biology. Attached is the 
information available about degrees.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    TSA's Office of Security Technology (OST), which is primarily 
responsible for developing functional requirements for new technology, 
has 77 employees on board. Of that number, approximately 40 employees 
have science or engineering degrees, many with advanced graduate 
degrees and a few with Doctorate level degrees. The OST staff includes 
a Chief Scientist and Chief Engineer, adequately addressing the need 
for research and development expertise and the functional requirements 
for new and emerging technologies. OST continues to hire in the 
science/engineering fields.

Question submitted by Representative Phil Gingrey

Q1.  Your testimony states that ``TSA's involvement will likely vary'' 
in future technology development and implementation. What factors would 
lead to decreased involvement by TSA in any particular aviation 
security project?

A1. The statement about the Transportation Security Administration's 
(TSA) involvement in future technology development does not mean that 
TSA envisions decreased participation in future efforts. Based on the 
maturity of screening technology at the time of assessment as well as 
the operational rigor required for implementation and integration, the 
project areas of responsibility are shared but will vary between TSA 
and the rest of the Department of Homeland Security.

Questions submitted by Representative Laura Richardson

Q1.  What is the status of the Registered Traveler (RT) Program?

A1. The current phase of the Registered Traveler (RT) Program is known 
as the Registered Traveler Inter-operability Pilot (RTIP). The RTIP is 
entirely fee-funded and intended to test inter-operability between 
multiple RT Service Providers. A Service Provider (SP) is a private 
sector vendor chosen by a Sponsoring Entity to implement RT as its 
agent. As of May 2008, 19 Sponsoring Entities, participating airport 
authorities or air carrier operators, are operating RT at 18 airport 
locations, three Transportation Security Administration approved SPs 
are hosting operational RT Programs, and approximately 110,000 
participants are active in the RT Program.

Q2.  How many TSA Employees are not US Citizens? How do you recruit TSA 
Employees?

A2. Currently, all Transportation Security Administration (TSA) 
employees are United States citizens.
    TSA participates in various recruitment activities to enhance 
awareness of opportunities for employment with TSA and maximize the 
number of highly qualified candidates for consideration. Recruitment 
efforts include posting job vacancies on USAJobs, web boards, college 
campuses, and in various print media. TSA recruiters participate in 
career fairs and conferences nationwide; establish relationships with 
community-based organizations, educational institutions, military 
associations, and cultural organizations. TSA recruiters also 
participate and attend professional association conferences to network 
with colleagues, business leaders and individuals in the field who may 
be resources for identifying qualified candidates. TSA also 
participates in Department of Homeland Security corporate recruiting 
events and job fairs, including Veterans Outreach efforts.

                   Answers to Post-Hearing Questions
Responses by Jimmie C. Oxley, Professor of Chemistry, University of 
        Rhode Island (URI); Co-Director, URI Forensic Science 
        Partnership; Co-Director, DHS University Center of Excellence 
        in Explosive Detection, Mitigation, and Response

Questions submitted by Chairman David Wu

Q1.  You noted in your testimony that operational difficulties 
undermine the performance of explosives-detection technologies 
currently in use in the field. Do existing tests and evaluations of 
explosives detectors adequately predict these field performance 
challenges? If not, what additional tests should detectors be subject 
to in order to ensure high quality performance and robustness?

A1. It is a general phenomenon that lab-scale results will not be 
directly applicable to real-world scenarios. Therefore, there is an 
intermediate step--the pilot-scale. In airport security, the pilot-
scale is use of a new device or protocol at a few select airports 
(test-beds) under carefully controlled conditions. Still, the final 
performance will also be affected by repetitive use and by 
incorporation of ``lessons-learned'' improvements. These steps cannot 
be avoided. The only way to speed this process is by use of more test-
bed facilities. The obvious lack in present technologies is the need to 
include ergonomic considerations at an early point in instrument 
design.

Question submitted by Representative Phil Gingrey

Q1.  How should TSA determine the appropriate mix of technology and 
people in its aviation security and other modes of transportation?

A1. It is important to continue vigorous funding for developing and 
improving technologies--old and new. However, ergonomic factors should 
be considered early in the development. Presently, people are used in 
security screening at points where instruments fail. It would be better 
to assign assets keeping in mind that people are better at decision-
making and instruments are better at screening. The only way to get the 
right balance is to continue and expand use of test-bed arenas.
                   Answers to Post-Hearing Questions
Responses by Colin G. Drury, Distinguished Professor and Chair, 
        Department of Industrial and Systems Engineering, State 
        University of New York at Buffalo

    Overall Response: These are excellent and thought-provoking 
questions that will help advance the cause of improved security, and 
particularly the role of Human Factors Engineering in helping assure 
that improvement. I thank the Chairman and Ranking Member for the 
chance to respond.

Questions submitted by Chairman David Wu

Q1.  In your opinion, is there adequate awareness of the need for human 
factors engineering in the private aviation security technology 
industry? If not, how should the Transportation Security Administration 
change their performance requirements to compel companies to consider 
human factors when designing technology?

A1. There was much talk in security about Human Factors since before 
TSA was formed, but the term tended to be used rather loosely in the 
aviation security technology industry. It often meant ``training'' or 
``human resources'' or ``computer screen design.'' This has improved 
over the years, so that the equipment manufacturers I have met have a 
more realistic view of human factors as an engineering discipline. I am 
still not convinced that they see it as a systems engineering 
discipline, with all that implies about designing from the start for 
the human operators rather than meeting a set of fixed requirements.
    To ``compel companies to consider human factors when designing 
technology'' it would be useful for the TSA to set requirements for the 
design process as well as requirements for the finished product. These 
could include employing at least one Human Factors Engineer and 
ensuring that the process of design was documented to show how that 
design input was used. Currently full membership in the Human Factors 
and Ergonomics Society in the USA would ensure adequate technical 
competence in Human Factors Engineering, but full certification by the 
Board of Certification in Professional Ergonomics (BCPE) would 
represent proven expertise in practice of the Human Factors Ergonomics 
discipline. The design process for the variety of different security 
systems is unlikely to benefit from rigid requirements. It would be 
preferable to have a process that called for the manufacturer to use 
good Human Factors Engineering practices in the design and demonstrate 
this to competent Human Factors Engineers in DHS (e.g., DHS's Science 
and Technology or TSL's human factors personnel). Of course, the 
government Human Factors Engineers would need to demonstrate the same 
level of credentials called for above.

Q2.  You mentioned in your testimony that technology can be tested for 
human factors by either analyzing the final product or carrying out 
field testing. Are there options for carrying out performance tests in 
the lab that would reveal any human-technology interaction problems?

A2. In my written testimony I mentioned both of these as valid 
evaluation methods. Analyzing the final product for compliance with 
Human Factors Engineering guidelines may not be as successful because, 
as noted in the testimony, security technologies are complex and varied 
so that no single checklist could hope to ensure a well human-
engineered system. The field testing alternative favored in the 
testimony could encompass a range of testing from breadboard testing of 
early prototypes in a laboratory through to in-service trials at 
airports or other points of entry. Product and system testing has a 
long history in Human Factors Engineering, and all levels have been 
used at different times on many systems. We now have excellent software 
for simulating working systems using computer workstations so that more 
realistic tests can be applied at an early stage of systems 
development. For example, with X-ray screening of carry-on baggage it 
is quite possible to test new technology and algorithms for detection 
of threats prior to the technology actually being available for in-
service use. In this way we can test, for example, increased system 
resolution (as was done at TSL) to determine whether or not increased 
resolution will make any practical difference to threat detection 
performance.
    In all off-line testing it is easier to detect problems than to 
assure future performance. If the simulated system works well under 
test conditions, then it may still have undiscovered problems in the 
field (e.g., maintenance errors), whereas if problems are found during 
testing they almost certainly would occur in field conditions. Where 
the test is sited, laboratory vs. field, may be less important than the 
psychological and biomechanical fidelity of the simulation in 
predicting future in-service performance. The choice of participants, 
for example, is crucial. Using personnel from the development team 
introduces a bias as they both know too much about the new system and 
have poor current experience of the in-service situation. Similarly 
using a subject pool of university students may answer some questions 
(e.g., how well do novices perform under different display options) but 
is unlikely to yield valid predictions of in-service performance. The 
measures in off-line testing are also important. As noted in my written 
testimony, we can take measures beyond performance (hits, false alarms 
and throughput) under test conditions. We can be prepared to observe 
human-system interaction errors and interview experienced users after 
the test to help determine not just that a problem exists but why it 
exists and how to prevent it. Because off-line testing is controlled, 
we can use a broad range of threat types and methods of concealment to 
determine in advance of service use where difficulties are possible, 
and where the greatest strengths of the new system lie. The textbook 
Evaluation of Human Work by J.R. Wilson and E.N. Corlett (3rd Edition, 
2005) has chapters on many of the issues of human factors testing from 
simulator fidelity to experimental design.

Questions submitted by Representative Phil Gingrey

Q1.  Your written testimony describes the Threat Image Projection 
System (TIPS) as one example of how human factors research can 
positively affect the efficacy and speed of aviation checkpoints. Can 
you tell us a bit more about that program including where it was 
developed and at what cost?

A1. This is a question for which I do not have complete data, so I 
would refer you to TSL for full information on who exactly developed 
TIPS and what it cost. I would expect that Dr. Hallowell would be able 
to make this information available. TIPS was developed at the TSL and 
won the team the FAA's Distinguished Achievement in Technology Transfer 
Award. The idea behind TIPS is that it provides realistic test images 
of threats to the screener during actual operations. These threats 
images are superimposed almost seamlessly onto items (carry-on bags 
etc.) that are actually passing through the X-ray scanner at the time 
and so the threats appear to be items within the bag. The screener 
presses one of two buttons to release the bag: OK if no threat is seen 
and Not OK if a threat is seen. If there was a TIPS threat projected 
onto the bag, the screener gets a response to the effect that they 
missed a threat (if they indicated OK) or a congratulation on correctly 
detecting a threat (if they indicated Not OK). When they correctly 
detect a threat they are instructed to re-inspect the bag in case it 
also contains an actual threat. The data on hits and misses of TIPS 
images is collected automatically on most newer X-ray equipment and is 
downloaded periodically for analysis.
    There are five main advantages of the TIPS system:

        A.  Because of the very low rate of actual threats, TIPS images 
        provide a means of increasing the effective rate of threats in 
        a realistic manner. The higher the effective threat rate, the 
        better the performance in almost any inspection task.

        B.  This increase in effective threat rate also tends to reduce 
        any time-on-task decrease in performance due to fatigue (the 
        Vigilance Decrement).

        C.  The rapid feedback of success / failure data to the 
        screener also reduces any vigilance decrement. True feedback is 
        problematical in any inspection task, as we almost never know 
        the true presence of a threat. If we did know that, there would 
        be no need for the inspection! Thus the artificial (but 
        realistic) feedback provided by TIPS overcomes a longstanding 
        problem in maintaining inspection performance.

        D.  Data can be collected on individual screeners, whole 
        screening lines, complete checkpoints and even whole airports 
        for monitoring purposes. In any inspection task, the system 
        will make errors and that is true of automated, manual and 
        hybrid inspection tasks. Collecting the TIPS data on errors 
        permits analysis of differences between screeners, checkpoints 
        etc. and so can point up instances of both high performance and 
        low performance. Action can then be taken to reward or retrain 
        individual screeners, or seek to replicate good screening lines 
        or checkpoints.

        E.  Finally, the database generated by TIPS can be used to 
        answer many research questions. For example, if threat 
        detection does indeed decrease with time on task (vigilance 
        decrement) the magnitude of the effect should be measurable in 
        TIPS data. It should also be possible to test time-of-day 
        effects, effects of growing screener expertise, the 
        effectiveness of changes to X-ray set-up or procedures, etc.

    Note however that for any of these to occur, the TIPS data must be 
valid. Thus the TIPS library of images must be large enough to avoid 
screeners recognizing images already seen. Also the managerial 
procedures must be followed reliably, for example ensuring that 
screeners actually sign out when they take a short break. The TIPS data 
collection system should not malfunction. Also, managers with little 
knowledge of statistics must beware of over-interpreting data from 
small samples. In fact QinetiQ in the UK has developed excellent 
software that helps interpret TIPS data, and specifically warns when 
the data are insufficient to evaluate a particular screener.

Q2.  How should TSA determine the appropriate mix of technology and 
people in its aviation security and other modes of transportation?

A2. This is a key question in any application of Human Factors 
Engineering, and so is especially relevant to security systems. At the 
most simplistic level, my written testimony included: ``Overall, 
automation provides the ability to take rapid and consistent action 
within strict rules, while humans provide the flexibility to respond 
when the rules do not apply (e.g., Parasuraman, Sheridan and Wickens, 
2000).'' This is a general guideline but more specific information is 
needed for each particular system. The Allocation of Function 
literature (e.g., Hollnagel, E., and Bye, A. (2000). Principles for 
Modeling Function Allocation. Int. J. Human-Computer Studies. Vol. 52, 
pp. 253-265) gives techniques for applying this methodology, as does 
the automation literature (e.g., Parasuraman, R., Sheridan, T.B. and 
Wickens, C.D. (2000). A model for types and levels of human interaction 
with automation. IEEE Transactions on Systems, Man and Cybernetics-Part 
A: Systems and Humans, Vol. 30 (3), May 2000). There are complete 
design methodologies under the headings of Socio-Technical Systems 
Engineering (Taylor, J.C. and Felten, D.F. (1992) Performance by 
Design, Prentice Hall) and Cognitive Work Analysis (Vicente, K.J. 
(1999). Cognitive Work Analysis. Mahwah, NJ: Erlbaum) which lead to 
specific answers in specific instances.
    Note that there may be quite different appropriate mixes of 
technology and people in different detection systems at a single 
checkpoint, and certainly between different modes of transportation. 
The task of searching an X-ray image of a cargo container is many times 
more difficult for a human than searching a carry-on bag image for 
similar threats. Minimally-aided human search may well be an effective 
solution for the smaller task, but software assistance in at least the 
search function would probably be required for a whole container to 
achieve the same level of threat detection.

                                   

</pre></body></html>
